<html>
<title> - PROTECTING THE MASS TRANSIT CRITICAL INFRASTRUCTURE IN NEW YORK CITY AND IN THE NATION</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
 PROTECTING THE MASS TRANSIT CRITICAL INFRASTRUCTURE IN NEW YORK CITY 
                           AND IN THE NATION

=======================================================================

                                HEARING

                               before the

                SUBCOMMITTEE ON TRANSPORTATION SECURITY
                     AND INFRASTRUCTURE PROTECTION

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 25, 2008

                               __________

                           Serial No. 110-109

                               __________

       Printed for the use of the Committee on Homeland Security
                                     
[GRAPHIC] [TIFF OMITTED] TONGRESS.#13

                                     

  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html

                               __________

                     U.S. GOVERNMENT PRINTING OFFICE
42-867 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�0900012008


                     COMMITTEE ON HOMELAND SECURITY

               Bennie G. Thompson, Mississippi, Chairman

Loretta Sanchez, California          Peter T. King, New York
Edward J. Markey, Massachusetts      Lamar Smith, Texas
Norman D. Dicks, Washington          Christopher Shays, Connecticut
Jane Harman, California              Mark E. Souder, Indiana
Peter A. DeFazio, Oregon             Tom Davis, Virginia
Nita M. Lowey, New York              Daniel E. Lungren, California
Eleanor Holmes Norton, District of   Mike Rogers, Alabama
Columbia                             David G. Reichert, Washington
Zoe Lofgren, California              Michael T. McCaul, Texas
Sheila Jackson Lee, Texas            Charles W. Dent, Pennsylvania
Donna M. Christensen, U.S. Virgin    Ginny Brown-Waite, Florida
Islands                              Gus M. Bilirakis, Florida
Bob Etheridge, North Carolina        David Davis, Tennessee
James R. Langevin, Rhode Island      Paul C. Broun, Georgia
Henry Cuellar, Texas                 Candice S. Miller, Michigan
Christopher P. Carney, Pennsylvania
Yvette D. Clarke, New York
Al Green, Texas
Ed Perlmutter, Colorado
Bill Pascrell, Jr., New Jersey

       Jessica Herrera-Flanigan, Staff Director & General Counsel

                     Rosaline Cohen, Chief Counsel

                     Michael Twinchek, Chief Clerk

                Robert O'Connor, Minority Staff Director

                                 ______

 SUBCOMMITTEE ON TRANSPORTATION SECURITY AND INFRASTRUCTURE PROTECTION

                 Sheila Jackson Lee, Texas, Chairwoman

Edward J. Markey, Massachusetts      Daniel E. Lungren, California
Peter A. DeFazio, Oregon             Ginny Brown-Waite, Florida
Eleanor Holmes Norton, District of   Gus M. Bilirakis, Florida
Columbia                             Paul C. Broun, Georgia
Yvette D. Clarke, New York           Peter T. King, New York (Ex 
Ed Perlmutter, Colorado              Officio)
Bennie G. Thompson, Mississippi (Ex 
Officio)

                     Erin Daste, Director & Counsel

                   Natalie Nixon, Deputy Chief Clerk

                 Coley O'Brien, Minority Senior Counsel

                                  (II)


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Sheila Jackson Lee, a Representative in Congress 
  From the State of Texas, and Chairwoman, Subcommittee on 
  Transportation Secuirty and Infrastructure Protection..........     1

                               Witnesses

Mr. Raymond W. Kelly, Commissioner, New York City Police 
  Department:
  Oral Statement.................................................     7
  Prepared Statement.............................................    10
Mr. Michael Balboni, Deputy Secretary for Public Safety, State of 
  New York:
  Oral Statement.................................................    20
  Prepared Statement.............................................    22
Mr. James C. Little, International President, Transportation 
  Workers Union:
  Oral Statement.................................................    25
  Prepared Statement.............................................    27
Mr. Thomas C. Lambert, Senior Vice President and Chief of Police, 
  Metropolitan Transit Authority, Harris County, Texas:
  Oral Statement.................................................    41
  Prepared Statement.............................................    43


 PROTECTING THE MASS TRANSIT CRITICAL INFRASTRUCTURE IN NEW YORK CITY 
                           AND IN THE NATION

                              ----------                              


                         Friday, April 25, 2008

             U.S. House of Representatives,
                    Committee on Homeland Security,
Subcommittee on Transportation Security and Infrastructure 
                                                Protection,
                                                      Brooklyn, NY.
    The subcommittee met, pursuant to call, at 9:30 a.m., at 
the Brooklyn Public Library, Grand Army Plaza, Brooklyn, New 
York, Hon. Sheila Jackson Lee [Chairwoman of the Subcommittee] 
presiding.
    Present: Representatives Jackson Lee and Clarke.
    Also present: Representative Nadler.
    Mr. Reyes-Gavilan. Good morning. My name is Richard Reyes-
Gavilan, Director of Central Library. On behalf of our 
Executive Director, Dionne Mack-Harvin, I would like to welcome 
you to Brooklyn Public Library, and our Doctor S. Stevan Dweck 
Center for Contemporary Culture, where we are honored to have 
Congresswoman Yvette Clarke hold this crucially important 
Homeland Security field hearing.
    As is well known, New York lives underground. Ridership on 
several Brooklyn subway lines has increased by staggering 
percentages over the past 10 years.
    New Yorkers want to know what is being done to ensure their 
safety. Brooklyn Public Library is an ideal location for this 
knowledge to be shared.
    I would now like to recognize our distinguished guests, 
beginning with Congresswoman Sheila Jackson Lee, Chairwoman of 
the Subcommittee on Transportation Security and Infrastructure 
Protection; Congresswoman Yvette Clarke; Congressman Jerrold 
Nadler; and our witnesses, Michael Balboni, Deputy Secretary 
for Public Safety, State of New York; James Little, 
International President, Transport Workers Union; Thomas C. 
Lambert, Senior Vice President and Chief of Police, Department 
of Public Safety, Houston METRO; and, of course, Raymond Kelly, 
Commissioner of the New York City Police Department.
    Thank you, and I will turn it over now to Ms. Jackson Lee. 
Thank you.
    Ms. Jackson Lee. This meeting is now called to order.
    I wish to quickly thank Richard Gavilan, Director of the 
Library, for his very kind and generous remarks and welcome. We 
are delighted to be here.
    He's absolutely right. We are delighted to be here at the 
invitation of Congresswoman Yvette Clarke, who is a member--a 
very diligent and vital member of this subcommittee, joined by 
a very distinguished colleague, Jerry Nadler, who is the Chair 
of the Constitution Subcommittee of the House Judiciary 
Committee. These very fine and distinguished members of 
Congress from New York have collectively been champions for 
security and civil liberties here in this very fine city. They 
have been champions for the concept of ensuring the depth of 
security and the formula being used by the Department of 
Homeland Security that is a, if you will, common sense 
approach--a practical approach to assessing the at-risk cities 
and providing the funding.
    Before I begin my formal remarks, let me make note of the 
fact that Mr. Nadler was an enormous advocate, after 9/11, for 
the compensation and the orderly response, if you will, to an 
enormous tragedy on behalf of New Yorkers. His leadership, 
along with the delegation, was superb.
    Congresswoman Clarke has come in and been, I believe, a 
shining star on the Homeland Security Committee. She has 
championed not only the important rights of New York and her 
District, but she has brought a broad view to how we can 
balance this very important question of workers' security and 
ensuring the civil liberties of New Yorkers and all Americans.
    So, I want to thank both of them for their presence here 
today as this meeting comes to order.
    As indicated, the subcommittee will come to order. The 
subcommittee is meeting today to receive testimony on 
protecting the mass transit critical infrastructure in New York 
City and in the Nation. Importantly, this testimony will 
discuss mass transit security in the New York City area, and 
how this applies to securing service transportation 
infrastructure nationwide.
    I would like to thank everyone for their participation in 
this morning's field hearing entitled ``Protecting the Mass 
Transit Critical Infrastructure in New York City and in the 
Nation.''
    As we all know, securing mass transit in this country is 
critical to ensuring that we protect the American public from 
terrorists. Each weekday, 11.3 million passengers in 35 
metropolitan areas and 22 States use commuter heavy or light 
rail. It is imperative that we in Congress continue to give 
those on the front lines the tools they need to continue to 
protect the traveling public.
    Until recently, the Department of Homeland Security has 
focused almost exclusively on aviation security. But we in 
Congress changed that focus with the enactment of the 9/11 
legislation last August, with the beginning of the leadership 
of the new Congress led by our Democratic Speaker and Majority 
Leader. The law now mandates that TSA put more focus on surface 
transportation security.
    To New Yorkers, we are awake and alert. We hear you. We 
understand the vastness of the mass transit system in America, 
and we are ready to protect it.
    Included in the requirements of the 9/11 legislation is 
expanded transportation grant criteria, protocols for frontline 
employee training, authorization for visible intermodal 
prevention and response teams, increases in surface 
transportation security inspectors, and many other improvements 
that will help to make our Nation's mass transit systems.
    Let me offer my greetings on behalf of our Chairman, Bennie 
Thompson, of Mississippi, who started in his efforts of 
reorganizing the committee, established this separate committee 
to make the statement to the Nation and around the world: 
Terrorists, stand back. We are concerned about mass transit. We 
are going to review mass transit. We are going to fund the mass 
transit systems to ensure the security of all America.
    Today in New York City, home to the largest mass transit 
system in America, we are here to discuss how we can continue 
to make mass transit safe for Americans. New York has been on 
the forefront of securing mass transit for many years. As the 
site of Ground Zero, the State of New York, the NYPD, Amtrak, 
Metropolitan Transit Authority, the Port Authority, and all of 
the frontline workers who work the subways, the trains, the 
buses, bridges, and tunnels are all keenly aware of how 
important their jobs are and what must continue to be done to 
secure this city and, of course, the Nation.
    Let me emphasize this again. We consider transit workers 
frontline workers. They are in the eye of the storm. They are 
our eyes and ears. They are our protectors. We want to ensure 
the right kind of working environment, the right kind of 
training, the right kind of security dollars. We want them to 
work in the best conditions, so they can do the best work for 
us.
    We in Congress are your partners in ensuring that you have 
the tools needed to secure surface modes of transportation. We 
have already accomplished much in the passage of the 9/11 bill. 
But surely, our work continues.
    The dialogue we have today gives those of us in Congress 
the opportunity to hear directly from those who work these 
issues on the ground, so that we can continue to be a resource 
for you.
    I would like to thank Commissioner Kelly and Deputy 
Secretary Balboni for sharing their perspectives with us today, 
as well as Mr. Little and Chief Lambert, for your presence and 
insight here today. The lessons we learn during this process 
can help secure transportation across the Nation.
    In my District, in Houston, we have the METRO System that 
transports thousands of people around the downtown area every 
day. We are growing in leaps and bounds. We expect great 
growth. We want to be secure, as well.
    While that system is different in many ways from what 
exists here in New York, there are common threads that we can 
share to make sure all mass transit systems have access to the 
most effective, cutting edge methods of security. I am pleased 
that Chief Lambert, as I indicated, is here today to share his 
perspective.
    Again, we are concerned about our workers, and so we look 
forward to hearing the important insight of the President of 
the International TWU, who is here to give his insight, as 
well, Mr. James Little.
    History has shown us that terrorists view rail and public 
transportation systems as potential targets. London, Madrid, 
Mumbai have fallen victim to attacks on rail and mass transit. 
Even the underground pipeline explosion, if you will, that 
occurred here in New York probably gave a number of individuals 
fear more than they might have imagined.
    So, we have to be on the alert on all kinds of issues. Even 
more devastation could be caused by a successful attack on our 
mass transit here in the United States.
    Further, this threat is always present. In January of this 
year, a plot was thwarted to attack the Barcelona public 
transit system. This attempted attack is yet another reminder 
that we must remain vigilant.
    I'd like to thank my esteemed colleague--colleagues, 
plural. Congresswoman Yvette Clarke, first, for hosting this 
important hearing in your District. She is a valuable member of 
the Homeland Security Committee. She has done excellent work in 
bringing issues of transportation security to the committee on 
behalf of this great city.
    Again, thank you, all.
    Ms. Jackson Lee. I'd like to yield 2 minutes to the 
distinguished member of the committee at this time, and I'd be 
happy to yield 2 minutes to Mr. Nadler at this time, as well.
    Congresswoman Clarke, now recognized.
    Ms. Clarke. I want to thank everyone for coming to this 
hearing. In particular, I would like to thank our Chairwoman, 
Sheila Jackson Lee, for bringing her committee to Brooklyn, and 
for her hard work in making this all come together. Although 
she now hails from Houston, she is a native New Yorker, and we 
welcome her back home with open arms.
    I also want to thank Commissioner Kelly, Deputy Secretary 
Balboni, Mr. Little, and Chief Lambert for taking their time to 
come and discuss this very important issue of mass transit 
security. I'd like to also thank my colleague, Jerrold Nadler, 
for being here and for being such a strong mentor to me, as a 
new member on the Hill.
    It is very important that the House of Representatives 
Subcommittee on Transportation Security and Infrastructure 
Protection is holding a hearing in New York City, and 
particularly here in Brooklyn, home to millions of people who 
depend on the subway and other mass transit to get them to 
work, to school, to the store, to friends' houses, and anywhere 
else you could imagine. Here in Brooklyn, riding the subway 
isn't just for commuting. It's a way of life.
    With millions of riders each day, the New York subway 
system is far and away the busiest in the country, and it sits 
in a city that is a well known favorite target of potential 
terrorists.
    The only way to keep our citizens safe in this situation is 
to have outstanding coordination between everyone. This 
includes the transit workers who are on the front line every 
day; the first responders, like the NYPD, FDNY, and others; 
State level agencies like MTA and the Port Authority; the 
Federal Government; and the people at managerial levels that 
run these organizations.
    For a city the size of ours, this is a near monolith task. 
However, the individuals involved in securing New York have 
done an outstanding job, accomplishing far more than any other 
city in America, setting a nationwide standard, and often 
implementing practices and programs that surpass what the 
Federal Government has done. There have been more than a few 
occasions where DHS and other Washington agencies have looked 
to what has been done in New York to determine the direction of 
their own work.
    As a Councilwoman during the 5 years following the attacks 
on September 11, I was proud to play a role in helping New York 
City to implement many of the new security practices. Now that 
I am in Congress, I feel it is my duty to do everything in my 
power to ensure that New York gets all the support it requires 
from the Federal Government in order to keep our constituents 
and visitors safe. That is why I'm the sole Representative from 
New York City sitting on the Homeland Security Committee, and 
why I'm very glad that the Chairwoman has brought our 
subcommittee here today.
    Thank you, very much.
    Ms. Jackson Lee. The gentlelady's time has expired.
    Mr. Nadler is recognized.
    Mr. Nadler. Well, thank you, very much. Let me begin by 
thanking the distinguished Chairwoman, Ms. Jackson Lee, for 
bringing this hearing here today, and for giving me permission, 
as a non-member of the committee, to sit at this hearing this 
morning.
    Let me also thank Congresswoman Clarke for bringing this 
hearing here, and for the diligent work she has done as a 
member of the Homeland Security Committee.
    We all know that New York is, perhaps, the major terrorist 
target in the United States, along with Washington. We have 
already suffered attacks. We know the daunting tasks of 
protecting all our people and all our infrastructure.
    We know that the city administration and the State 
administration have done heroic work in this regard, and I want 
to compliment Commissioner Kelly and Deputy Secretary Balboni, 
in particular, for that.
    We know that the Department of Homeland Security and that 
the congressional formulas for distribution of aid under the 
Homeland Security grant allocations have been skewed not 
entirely in favor of where the risks are, to put it mildly. We 
have had to struggle. The New York delegation, among others, 
has struggled to correct that. Over the years, we have made 
some considerable progress.
    In the 9/11 bill that Congresswoman Jackson Lee referred to 
last year, that bill also contained a number of provisions with 
a direct relevance to mass transit. We are gratified that the 
Department is finally recognizing that we have to devote real 
effort to mass transit.
    I know that when I travel on an airplane, and many of us 
travel on airplanes, there is plenty of security. When I travel 
on the New York City subway system or, for that matter, on 
Amtrak, there may be security, but there is certainly very 
little in terms of comparing to what one goes through when one 
goes in the air.
    Obviously, it's human nature to react immediately where the 
attack occurred, but it is also obvious that we have to protect 
ourselves not only where the first attack occurred, but where 
the next may, God forbid, occur. So, I'm very gratified at the 
efforts that are being made, and I'm particularly gratified at 
this hearing to look into these matters.
    Again, I thank the chairperson for her diligent work in 
bringing this hearing and in looking over these questions.
    Ms. Jackson Lee. I thank you, very much.
    For the formal record, I ask unanimous consent for Mr. 
Nadler to join the hearing.
    Hearing no objection, so ordered.
    Let me welcome the panel of witnesses.
    Our first witness is Commissioner Ray Kelly. Raymond W. 
Kelly was appointed Police Commissioner of the city of New York 
City by Mayor Michael Bloomberg, making Commissioner Kelly the 
first person to hold the post for a second separate tenure.
    Commissioner Kelly was formerly Senior Managing Director of 
Global Corporate Security at Bear Stearns and Company. Before 
that, he served as Commissioner of the U.S. Customs Service, 
where he managed the agency's 20,000 employees and $20 billion 
in annual revenue. For the record, that is where I enjoyed 
Commissioner Kelly's service, as he visited with us before the 
House Judiciary Committee.
    Our second witness is Deputy Secretary for Public Safety, 
Michael Balboni. Mr. Balboni has a day-to-day responsibility 
for managing Homeland Security affairs, emergency preparedness 
and response of law enforcement, an 18-year veteran of both 
houses of the State Legislature. He has extensive experience in 
security and law enforcement matters.
    He was the author of New York's Antiterrorism Law of 2001, 
that mandates severe penalties for those who commit terror 
acts, make terror threats, or render assistance to terrorists. 
He also authored a 2002 law that helps protect the State's 
water supply from terror attacks. In 2005, he authored the 
Chemical Plant Security Act, the first of its kind in the 
Nation.
    I have indicated that I look forward to having Mr. Balboni 
come to our committee in Washington, as we move forward on 
issues dealing with water security and chemical security.
    Our third witness is James Little, International President 
of Transportation Workers Union. Mr. James Little assumed the 
office of International President in 2006.
    Mr. Little has been serving TWU in numerous capacities for 
three decades, including: TWU Local 540, Section Chairman for 3 
years; President of TWU Local 542--Aircraft Dispatchers and 
Meteorologists--for 12 years; TWU International Representative 
for 7 years; and Air Transport Division and TWU International 
Administrative Vice President since 2001.
    He became a member of TWU in 1971 after hiring on in the 
Fleet Service for American Airlines, after service to the 
Nation as an AMT and Crew Chief for the U.S. Air Force 
Strategic Air Command.
    Mr. Little has been a vital asset to the House of 
Representatives as it relates to the rights of workers. His 
insight on the idea of transit workers as frontline workers is 
vital. We look forward to seeing him, as well, in Washington, 
on these issues, and continuing this discussion.
    Let me also acknowledge and recognize the leadership he has 
in Washington, representing TWU, and we thank all of you for 
your leadership.
    Our fourth and final witness is Chief Thomas Lambert, 
Senior Vice President of Public Safety, Chief of Police of 
Houston METRO--proudly, Houston METRO. Thomas Lambert joined 
METRO in October, 1979.
    He is currently the Senior Vice President and Chief of 
Police of the Department of Police and Traffic Management for 
the Metropolitan Transit Authority in Houston, Texas. He also 
is the President of the Transit Chiefs of Police, and I would 
like to say International--that might be the term for this 
Nation--and by that, he leads the Chiefs of Police around the 
Nation who are in charge of mass transit systems.
    He has been a vital asset to our committee. We will be 
working with him on a number of forward-thinking concepts as we 
go forward on this question of transit security.
    Without objection, the witnesses' full statements will be 
inserted in the record. I know ask each witness to summarize 
his statement for 5 minutes, beginning with Commissioner Ray 
Kelly.
    Mr. Kelly, welcome.

  STATEMENT OF RAYMOND W. KELLY, COMMISSIONER, NEW YORK CITY 
                       POLICE DEPARTMENT

    Mr. Kelly. Chairwoman Jackson Lee, Congresswoman Clarke, 
and Congressman Nadler, thank you for the opportunity to 
testify.
    With 36,000 uniformed police officers, and 15,000 civilian 
employees, the New York City Police Department is the largest 
municipal police department in the country. Our duties include 
primary responsibility for the security of our mass transit 
system. We have nearly 2,600 police officers assigned to our 
Transit Bureau, which is dedicated exclusively to the safety of 
our subways. If this Bureau were its own police department, it 
would rank as the fourteenth largest in the country.
    In the post-September 11 era, protecting mass transit from 
acts of terror is one of our highest priorities. We go to 
extraordinary lengths to defend the system every day. Nowhere 
is that more evident than in the subways.
    Yesterday, we launched another major initiative to protect 
the subway system. The new plan, Operation Torch, takes teams 
of highly specialized officers from our Emergency Services Unit 
and deploys them underground, where they conduct daily searches 
of trains with the help of bomb-sniffing dogs. These officers, 
who carry automatic weapons and wear heavy, bullet-resistant 
Kevlar vests and helmets, serve as a highly visible deterrent.
    Operation Torch is an important complement to an extensive 
program of transit security already in place, whose other 
features I will discuss in a moment. But first, I want to talk 
about why we devote so much time and so many resources to this 
activity.
    As you know, New York's mass transit system is 
indispensable to the city's economy and the livelihoods of 
millions of residents. Over 4\1/2\ million people ride the 
subways each day, making this system one of the busiest in the 
world. About half a million more commuters and tourists rely on 
ferries and buses.
    Adding to this challenge is the vast size and complexity of 
the subway system, the second largest in the world after 
Moscow. It covers 468 stations and more than 800 miles of track 
which, if laid end to end, would stretch from here to Chicago. 
Simply put, we have a lot of ground to cover.
    Most importantly, we know that subways are a frequent 
target for al Qaeda and its sympathizers. We have seen that in 
successful attacks in Madrid and London that killed hundreds of 
people and caused massive economic damage. Because subways, by 
their very nature, are open and accessible systems, they can be 
very vulnerable and present a unique threat environment for law 
enforcement to defend.
    Given that fact, the NYPD has taken comprehensive measures 
to protect the subways as part of a wide-ranging 
counterterrorism reform put in place over the last 6\1/2\ 
years. We have been helped in this endeavor by the Federal 
Government, thanks largely to the excellent support and 
cooperation we have received from the Transportation Security 
Administration.
    With the TSA's assistance, the Police Department has gone 
from being ineligible for direct participation in the Transit 
Security Grant program prior to 2007, to having a prominent 
seat at the table. It is only fitting, given our size and lead 
role in this crucial aspect of public safety.
    I also want to commend TSA's emphasis on cooperative 
agreements, which allow agencies like the NYPD and our regional 
partners much needed flexibility in deciding the best mix of 
equipment and operational strategies to use.
    Operation Torch, which is funded by a Transit Security 
Grant, is a primary example.
    Our heightened visibility in the subway system has paid 
dividends for conventional crime fighting, as well. Daily 
subway ridership today is the highest it has been in 55 years, 
in large measure because the system is so safe.
    In 1990, there was an average of 48 crimes per day in the 
subways. Last year, there was an average of six crimes per day. 
This decline is part of an overall trend in which citywide 
crime rates have fallen to their lowest level in decades, 
including a further 26 percent drop in the 6 years after 
September 11.
    Whether above ground or below, we are making our presence 
seen and felt in different ways, giving would-be terrorists and 
common criminals cause to think twice. Still, we face many 
challenges.
    During a typical morning rush hour, there are 580 trains in 
service throughout the subway system. On average, these trains 
are filled with anywhere from 1,100 to 1,450 people. Obviously, 
we can't be on every train or in every car at once, so we 
devised strategies to keep terrorists off balance and increase 
the risk of detection.
    These strategies are informed by the expertise of our 
Counterterrorism Bureau, which we created in 2002. It has 
overall responsibility for defending the city from the 
terrorist threat, and contributes additional personnel and 
resources to the transit system.
    We also draw heavily upon the work of our Intelligence 
Division, which provides critical analysis of threat 
information gathered from around the world. We do this with the 
help of NYPD liaisons stationed in 10 global cities and a team 
of civilian analysts.
    In addition to Operation Torch, the Police Department 
carries out daily Train Order Maintenance Sweeps, otherwise 
known as ``TOMS.'' These are conducted through the system every 
day by two separate teams, each consisting of a sergeant and 
eight police officers.
    They dedicate their entire tour to these sweeps. They board 
trains that have pulled into a station, ask the conductor to 
hold it there for approximately 2 to 3 minutes, and conduct a 
quick security check of every car. On weekends, when ridership 
is normally lower, we have one team carrying out these TOMS.
    Subway stations are also the subject of periodic visits by 
our heavily armed Hercules teams, working under Operation 
Atlas. This is our umbrella program for protecting critical 
infrastructure of all kinds. Similar to Operation Torch, 
Hercules is manned by officers from the Emergency Services Unit 
who carry tactical weapons and pay unannounced visits to 
sensitive sites. Their deployments are determined by our 
Intelligence Division and based on real threat assessments.
    We have created specialized tunnel inspection teams within 
the Transit Bureau. It is the job of the members of this team 
to ride the trains, check the rails, and visually inspect the 
14 underwater tunnels connecting Manhattan to New Jersey and 
the outer boroughs for anything unusual.
    In July 2005, in response to the bombings of the London 
underground, the NYPD launched a random search program to check 
the bags of subway passengers before the enter the system. We 
establish checkpoints at dozens of different stations each day, 
and select members of the public for bag inspections based on a 
pre-determined, non-random formula that removes any possibility 
of bias. Over the past 3 years, we have conducted approximately 
48,000 of these checkpoints.
    We also employ non-intrusive detection equipment at many 
checkpoints, to determine whether or not baggage has come into 
contact with explosive materials. This procedure, which takes 
about 12 seconds, involves a chemical swab of a backpack or bag 
that is immediately tested for explosive residue with a 
handheld device.
    The effectiveness of our bag searches have been supported 
by prominent national security experts, such as former senior 
White House Advisor and Coordinator for Counterterrorism, 
Richard Clarke, who cited them as an important safeguard.
    Regarding other modes of mass transit, we assign a minimum 
of two police officers to every Staten Island ferry at rush 
hour and additional officers to ferry terminals, which are also 
visited by our Hercules teams. In addition, we deploy harbor 
launches to escort ferries and keep watch over the waterways, 
and we employ scuba divers and specialized equipment to check 
the hulls of ships. We also assign officers to city buses to 
deter crime and terrorism. We have placed hundreds of radiation 
pagers in patrol cars, and we routinely set up radiation 
checkpoints at major access points into Manhattan to detect the 
movement of a nuclear or dirty bomb.
    This week, we heard again from al Qaeda's No. 2 leader, 
Ayman El-Zawahiri. Zawahiri promised new attacks against the 
West in an audiotape in which he answered hundreds of questions 
posed by jihadist sympathizers. We have no choice but to take 
him at his word.
    We know al Qaeda has reconstituted itself in the northwest 
tribal areas of Pakistan. We have every reason to believe they 
are gathering strength and preparing for such a mission. The 
only thing we know with certainty is that we can never let down 
our guard.
    Suffice it to say, we welcome and need all of Washington's 
help to protect mass transit. As I said earlier, we have seen 
great improvement in this area.
    I also want to thank the members of the subcommittee 
present here today, along with Chairman Thompson and 
Congressman King, for your vital support in defending this 
essential component of our infrastructure.
    Thank you, very much, for inviting me today.
    Ms. Jackson Lee. I thank the gentleman.
    [The statement of Mr. Kelly follows:]

                 Prepared Statement of Raymond W. Kelly
                             April 25, 2008

    Chairwoman Jackson Lee. Congresswoman Clark. Thank you for this 
opportunity to testify. With 36,000 uniformed officers, the New York 
City Police Department is the largest municipal police department in 
the country. Our duties include primary responsibility for the security 
of the mass transit system. We have nearly 2,600 police officers 
assigned to our Transit Bureau, which is dedicated exclusively to the 
safety of the subways. If this Bureau were its own police department, 
it would rank as the fourteenth largest in the country.
    In the post-September 11 era, protecting mass transit from acts of 
terror is one of our highest priorities. We go to extraordinary lengths 
to defend the system every day. Nowhere is that more evident than in 
the subways.
    Yesterday, we launched another major initiative to protect the 
subway system. This new plan, Operation Torch, takes teams of highly 
specialized officers from our Emergency Service Unit and deploys them 
underground, where they conduct daily searches of trains with the help 
of bomb-sniffing dogs. These officers, who carry automatic weapons and 
wear heavy, bullet-resistant Kevlar vests and helmets, serve as a 
highly visible deterrent.
    Operation Torch is an important complement to an extensive program 
of transit security already in place, whose other features I will 
discuss in a moment. First, I want to talk about why we devote so much 
time and so many resources to this activity.
    As you know, New York's mass transit system is indispensable to the 
city's economy and the livelihoods of millions of residents. Over 4.5 
million people ride the subways each day, making this system one of the 
busiest in the world. About half a million more commuters and tourists 
rely on ferries and buses.
    Adding to this challenge is the vast size and complexity of the 
subway system, the second largest in the world after Moscow. It covers 
468 stations and more than 700 miles of track which, if laid end-to-
end, would stretch from here to Chicago. Simply put, we have a lot of 
ground to cover.
    Most importantly, we know that subways are a frequent target for al 
Qaeda and its sympathizers. We've seen that in successful attacks in 
Madrid and London that killed hundreds of people and caused massive 
economic damage. Because subways, by their very nature, are open and 
accessible systems, they can be very vulnerable and present a unique 
threat environment for law enforcement to defend.
    Given that fact, the NYPD has taken comprehensive measures to 
protect the subways as part of wide-ranging counterterrorism reforms 
put in place over the last 6\1/2\ years. We have been helped in this 
endeavor by the Federal Government, thanks largely to the excellent 
support and cooperation we receive from the Transportation Security 
Administration.
    With the TSA's assistance, the Police Department has gone from 
being ineligible for direct participation in the Transit Security Grant 
program prior to 2007 to having a prominent seat at the table. It is 
only fitting given our size and lead role in this crucial aspect of 
public safety. I also want to commend TSA's emphasis on cooperative 
agreements, which allow agencies like the NYPD and our regional 
partners much needed flexibility in deciding the best mix of equipment 
and operational strategies. Operation Torch, which is funded by a 
Transit Security Grant, is a primary example.
    Our heightened visibility in the subway system has paid dividends 
for conventional crime-fighting as well. Daily subway ridership today 
is the highest it has been in 55 years in large measure because the 
system is so safe. In 1990, there was an average of 48 crimes per day 
in the subways. Last year, there was an average of 6 crimes per day. 
This decline is part of an overall trend in which citywide crime rates 
have fallen to their lowest levels in decades, including a further 26 
percent drop in the 6 years after September 11.
    Whether above ground or below, we are making our presence seen and 
felt in new and different ways, giving would-be terrorists and common 
criminals cause to think twice. Still, we face many challenges.
    During a typical morning rush hour, there are 580 trains in service 
throughout the subway system. On average, these trains are filled with 
anywhere from 1,100 to 1,450 people. Obviously, we can't be on every 
train or in every car at once. So we have devised strategies to keep 
terrorists off balance and increase their risk of detection.
    These strategies are informed by the expertise of our 
Counterterrorism Bureau, which we created in 2002. It has overall 
responsibility for defending the city from a terrorist threat, and 
contributes additional personnel and resources to the transit system.
    We also draw heavily upon the work of our Intelligence Division, 
which provides critical analysis of threat information gathered from 
around the world. We do this with the help of NYPD liaisons stationed 
in 10 global cities and a team of civilian analysts.
    In addition to Operation Torch, the Police Department carries out 
daily Train Order Maintenance Sweeps, otherwise known as ``TOMS''. 
These are conducted throughout the system every weekday by 2 separate 
teams, each consisting of one sergeant and eight police officers. They 
dedicate their entire tour to these sweeps. They board trains that have 
pulled into a station, ask the conductor to hold it there for 
approximately 2 to 3 minutes, and conduct a quick security check of 
every car. On weekends, when ridership is normally lower, we have one 
team carrying out these TOMS.
    Subway stations are also the subject of periodic visits by our 
heavily armed Hercules teams, working under Operation Atlas. This is 
our umbrella program for protecting critical infrastructure of all 
kinds. Similar to Operation Torch, Hercules is manned by officers from 
the Emergency Service Unit who carry tactical weapons and pay 
unannounced visits to sensitive sites. Their deployments are determined 
by our Intelligence Division and based on real-time threat assessments.
    We've created specialized tunnel inspection teams within the 
Transit Bureau. It is the job of the members of this team to ride the 
trains, check the rails, and visually inspect 14 underwater tunnels 
connecting Manhattan to New Jersey and the outer boroughs for anything 
unusual.
    In July 2005, in response to the bombings of the London 
underground, the NYPD launched a random search program to check the 
bags of subway passengers before they enter the system. We establish 
checkpoints at dozens of different stations each day, and select 
members of the public for bag inspections based on a pre-determined, 
non-random formula that removes any possibility of bias. Over the past 
3 years, we've conducted approximately 48,000 of these checkpoints.
    We also employ non-intrusive detection equipment at many 
checkpoints to determine whether or not baggage has come into contact 
with explosive materials. This procedure, which takes about 12 seconds, 
involves a chemical swab of a backpack or bag that is immediately 
tested for explosive residue with a handheld device.
    The effectiveness of our bag searches has been supported by 
prominent national security experts such as former senior White House 
Advisor and Coordinator for Counterterrorism Richard Clarke, who cited 
them as an important safeguard.
    Regarding other modes of mass transit, we assign a minimum of 2 
police officers to every Staten Island Ferry at rush hour and 
additional officers to ferry terminals, which are also visited by our 
Hercules Teams. In addition, we deploy harbor launches to escort 
ferries and keep watch over the waterways. And we employ scuba divers 
and specialized equipment to check the hulls of ships. We also assign 
officers to city buses to deter crime and terrorism. We've placed 
hundreds of radiation pagers in patrol cars and we routinely set up 
radiation checkpoints at major access points into Manhattan to detect 
the movement of a nuclear or dirty bomb.
    This week, we heard again from al Qaeda's No. 2 leader, Ayman Al-
Zawhiri. Zawahiri promised new attacks against the West in an audiotape 
in which he answered hundreds of questions posed by jihadist 
sympathizers. We have no choice but to take him at his word.
    We know al Qaeda has reconstituted itself in the northwest tribal 
areas of Pakistan. We have every reason to believe they are gathering 
strength and preparing for such a mission. The only thing we know with 
certainty is that we can never let down our guard.
    Suffice it to say, we welcome and need all of Washington's help to 
protect mass transit. As I said earlier, we have seen great improvement 
in this area. I also want to thank the members of the subcommittee 
present here today, along with Chairman Thompson and Congressman King, 
for your vital support in defending this essential component of our 
infrastructure.

    Ms. Jackson Lee. Let me ask the witnesses if they would 
indulge the questioning of Commissioner Kelly at this time, as 
his duties, I understand it, have called him to another 
meeting.
    So, I ask each directly, and I thank you very much for you 
indulgence.
    With that, I yield myself 5 minutes. I would ask all of us 
to adhere to the time limit on the questioning.
    Commissioner Kelly, tell me what would be the fate of this 
Nation if we failed to emphasize the vulnerabilities and the 
risks that occur in a mass transit system?
    Mr. Kelly. Well, clearly, you know, I can speak 
specifically about New York City. The transit system here is 
the lifeblood of New York. Four-and-a-half million people a day 
travel on it.
    If there were an attack on the transit system, I think it's 
fair to say that the city would ground to a halt. The question 
is how long. This is, as we have seen occurrences in Israel and 
other societies, we don't have that experience, and I think it 
would take quite a while for us to recover.
    So, it is vital that we do everything we reasonably can to 
protect the transit systems, of course not only here in New 
York, but throughout the Nation.
    We are particularly focused on protecting the system. Here, 
as you see, we devote 2,600 police officers every day to 
protecting the system.
    Ms. Jackson Lee. So, that----
    Mr. Kelly. So, it--it would have a catastrophic effect.
    Ms. Jackson Lee. Because of the continuing seam of the 
network, then, is it fair to say that there could be massive 
loss of life?
    Mr. Kelly. Well, certainly there would be a massive loss of 
life, and it would have a catastrophic economic effect, as 
well.
    Ms. Jackson Lee. Let me pursue. You mentioned a lot of 
areas where TSA has been effective in the Transportation 
Security Grants. So, you obviously welcome the idea of 
particular transit entities being direct recipients of Federal 
funds through the Transportation Security Grants.
    Mr. Kelly. I do. I would welcome even more the enforcement 
agencies being the direct recipients, but that has changed. We 
now receive our grants through the State, and I think that is 
working well.
    In 2007, we were able to receive a grant directly, and 
ideally, that would be my choice.
    Ms. Jackson Lee. In my questioning of Chief Lambert, I will 
pursue that.
    Let's go quickly on to Operation Torch. Could you--the time 
is short. Could you quickly tell me how you developed the 
program, what are the protocols for the use of firearms, and 
was there any coordination with TSA as you developed the 
program?
    As I understand it, it is heavily armed individuals. Of 
course, I will express my concern as to your perception of the 
effectiveness of that.
    I'd also ask you to respond to the idea of funding to 
improve your intelligence. Would that not be a better approach?
    So, if you'd start with how the program was developed, what 
are the protocols, and whether TSA was involved, and are you 
using any of your dollars for intelligence gathering, in 
essence, to be preventative, as opposed to this approach?
    Mr. Kelly. Well, starting in 2003, we put in place our 
Hercules program, which is a program on the streets of the 
city, that involves deployment of uniformed officers, heavily 
armed uniformed officers.
    We see this in Europe, but it was really the first of its 
kind in the United States. It has been very well received by 
the public.
    The Torch program is simply an extension of that concept 
into the subway system. Certainly, as we discussed this with 
TSA, it enables us to use some of the money for the personnel 
costs, the overtime costs, attendant with this program.
    Now, Emergency Services officers are, I would say, 
arguably, the best trained officers that we have in this 
Department, and perhaps anywhere in municipal policing in the 
country. Their training consisted--their initial training 
consists of 6 months of additional training, very specialized 
training in the use of weapons.
    They are emergency psychological technicians. They are all 
Emergency Medical Technicians. We send them to Federal schools 
throughout the country. They man our radiation detectors. We 
are very proud of our Emergency Services officers.
    Ms. Jackson Lee. These are the ones that you use?
    Mr. Kelly. These are the ones that staff the Torch program.
    Ms. Jackson Lee. So, their gun training or the gun 
protocols are what? When are they triggered to use----
    Mr. Kelly. Well, they are----
    Ms. Jackson Lee. Because they are traveling among the 
public.
    Mr. Kelly [continuing]. Guided, of course, by all of the 
restrictions of the New York State penal law and our own 
internal restrictions, which are the most restrictive firearms 
policies of any major police department in the country.
    As a matter of fact, the number of shooting incidents per 
contact in New York City is the lowest of any major police 
department in the country. We are proud of that. I mean, with--
--
    Ms. Jackson Lee. I----
    Mr. Kelly [continuing]. Twenty-two million citizen contacts 
a year, we can't guarantee that every one of them is going to 
go----
    Ms. Jackson Lee. My time has expired. If you'd just answer 
quickly the intelligence question. Are you focusing----
    Mr. Kelly. We use----
    Ms. Jackson Lee [continuing]. On intelligence gathering?
    Mr. Kelly [continuing]. Parts of this funding for 
intelligence analysts. We have brought together a group of 
intelligence analysts--25 of them--that are arguably, again, 
the best in the country. They are from the top flight 
educational institutions--Harvard, Harvard Law School, 
Stanford, military academies. We have brought them together, 
and I would submit that they are equal, if not surpassing, any 
intelligence analyst cadre that exists anywhere.
    So, we have our own intelligence analysts, but in this 
program, there is funding that allows for two intelligence 
analysts, and we are certainly in the process of bringing them 
on board.
    Ms. Jackson Lee. My time is expired. I yield to the 
distinguished gentlelady from New York, 5 minutes.
    Ms. Clarke. Thank you, very much, Madame Chair.
    To Commissioner Kelly, I just want to pursue the whole 
issue of Operation Torch. I woke up early this morning to see 
that it was in effect, and I thought that that was 
extraordinary.
    But, can you elaborate on how the program works, and where 
the idea came from?
    Mr. Kelly. Well, as I say, we have been doing a similar 
program on the streets of the city.
    We--every day, we bring together about 150 police cars, 
with two officers, on three tours. They rally and they focus 
primarily in Manhattan. Some of these officers have heavy 
weapons and are--that component is called the Hercules Teams. 
So, we have done that. It's met with very positive public 
response.
    This program through Federal funding, Torch, is an 
extension of the Hercules program that we have on our streets. 
As I said, it's been very well received. These are the best 
trained officers that we have in the Department.
    Ms. Clarke. In just listening to your testimony, you spoke 
about cooperative agreements with TSA, as well as a number of 
operations. You have Operation Torch. You have Operation 
Hercules, Operation Atlas. These are grant dependent. Let me--
--
    Mr. Kelly. Some are and some aren't.
    Ms. Clarke. Some are and some aren't.
    Mr. Kelly. Right.
    Ms. Clarke. Which of those would you say are grant-
dependent?
    Mr. Kelly. Torch, right now. But, the Hercules and the 
critical response vehicles are not. We are doing that mostly on 
our own dime.
    Ms. Clarke. Okay. So, you know, were we to look at how we 
strengthen that and make that, I guess, a mainline area of 
defense for our city, would you say that it is important that 
the Nation look at that as a protocol for other similarly-
situated cities around the Nation?
    Mr. Kelly. Yeah. You know, there is a historical reluctance 
on the part of the Federal Government to pay for personnel 
costs, to pay for overtime costs. That's the major part of our 
expense in the New York City Police Department, at least. We 
put boots on the ground, and we need additional people to go to 
sensitive locations.
    We're a city that's been attacked twice successfully by 
terrorists. We had six other plots that have been thwarted 
since September 11. So, we need, in our judgment, the presence 
of uniformed police officers, and it's a strain on our budget 
to do it. But we, unfortunately, see no other way to protect 
the city.
    Ms. Clarke. You know, I guess, one of the things that we 
are looking at, as we build out the Department, I have had a 
number of observations where the one-size-fits-all, you know, 
criteria is a challenge. Every environment across this Nation 
is a bit different. There are certain things that, you know, 
certainly can be applied across the board.
    But, in looking at building out the Department, do you 
think it would make sense that we either look at regional 
approaches to counterterrorism activities, or, you know, enable 
various jurisdictions to submit to the Department of Homeland 
Security plans for what they believe is the best way to secure 
their citizenry and have the Federal Government be a 
participant in that?
    Mr. Kelly. Well, I agree that one size does not fit all. We 
see ourselves as being unique here, No. 1, because of our size; 
and second, because of our history here. We are, as Congressman 
Nadler said, at the top of the terrorist target list.
    So, you just can't take a template and move it around the 
country.
    Ms. Clarke. Well, having said that, when you look at your 
Department from a purely strategic perspective, how does the 
NYPD handle counterterrorism differently from other big city 
departments?
    Is it just the amount of funding that you received? Is it 
in the organizational aspects of the department?
    What sets the NYPD apart, and what should other cities and 
the Federal Government take from that?
    Mr. Kelly. Well, I think it's up to other cities and the 
Federal Government to take a look at New York and see what they 
think is applicable. Because, I'm not really in a position to 
say what other cities should do.
    Ms. Clarke. Um-hmm.
    Mr. Kelly. But, I can tell you what I believe sets us 
apart. We have created a Counterterrorism Bureau, the first big 
city department to do that, in 2002. We brought in top flight 
professionals with Federal Government experience. David Cohen 
is our Director of Intelligence, a 35-year veteran of the CIA, 
former Director of Operations in the Central Intelligence 
Agency. Our Counterterrorism Deputy Commissioners have been 
retired Marine Corps Lieutenant General Frank Libutti; Mike 
Sheehan, a former Assistant Secretary in Counterterrorism at 
the State Department; Richard Falkenrath now, a former Deputy 
Homeland Security Advisor to President Bush.
    We devote 1,000 police officers a day to our 
counterterrorism duties. We understand very few police 
departments can do that.
    As I say, we have created a cadre of analysts that, I 
believe, are second to none. We have officers assigned in ten 
foreign countries, embedded with police agencies, to ask the 
New York question. We have them in London, in Paris, in Amman, 
Jordan, in Singapore, in Canada.
    So, we are different. Why are we different? We are bigger, 
and we see ourselves at the top of the terrorist target list. 
Now, if you're in other cities, you may very well have other 
priorities, and we understand that.
    Again, we are just not able to devote the resources that we 
feel are necessary to be devoted here in New York. So, that is 
why I just have to caution against saying, hey, we are doing 
this and other cities should do it.
    We see ourselves very much at risk here, and we are going 
to have to, in my judgment, continue to devote substantial 
resources, even though our headcount has gone down. We have 
problems hiring police officers.
    Ms. Clarke. Um-hmm, um-hmm.
    Mr. Kelly. We are 12 percent--I mean, we have experienced a 
12 percent reduction in the size of the Department from fiscal 
year 2001 to where we are now. Yet, we are still devoting 1,000 
officers to counterterrorism. Why? We believe we have to.
    Ms. Clarke. My time has expired. I thank you, Commissioner 
Kelly.
    Ms. Jackson Lee. I thank the gentlelady, and yield to the 
distinguished gentleman, Mr. Nadler, 5 minutes.
    Mr. Nadler. I thank the distinguished Chairlady.
    Commissioner, you just said that there has been a 12 
percent reduction in headcount since 2002. Is that budget 
authorized, or is that how many people are there, and you 
haven't kept a full force?
    Mr. Kelly. Both.
    Mr. Nadler. Both.
    Mr. Kelly. Both.
    Mr. Nadler. Well, how much is each?
    Mr. Kelly. Well, that's--we had 40,800 officers in fiscal 
year 2001. Right now, as we speak, we are at 35,800.
    Mr. Nadler. Authorized.
    Mr. Kelly. No. Authorized is--this is complicated. 
Authorized is 37,800 officers.
    What we have done for this fiscal year coming up, for the 
next fiscal year, is we have taken a temporary 1,000 person 
reduction in that authorized headcount, because we can't hire 
them. So, this is helping out the--you know, the budget crunch.
    Mr. Nadler. You can't hire because there isn't enough 
money, or you just can't process them, or----
    Mr. Kelly. We can't hire them because an arbitrator lowered 
our starting salary to $25,100----
    Mr. Nadler. You're not going to----
    Mr. Kelly [continuing]. A 40 percent reduction in starting 
salary--so, $25,100 is----
    Mr. Nadler. So, there aren't enough people to--there aren't 
enough recruits.
    Mr. Kelly. If you know, you can see the gap that we have, 
but we're hiring classes of about 1,000.
    Mr. Nadler. Okay. Let me switch subjects for a moment.
    You said the Federal Government has a bias--I don't know if 
that's the right word--but a preference against personnel 
costs.
    Mr. Kelly. Right.
    Mr. Nadler. What percentage of the antiterrorism budget, if 
you will, of the Police Department, is personnel costs?
    Mr. Kelly. Ninety percent.
    Mr. Nadler. Ninety percent. The Federal Government, 
basically, doesn't fund that.
    Mr. Kelly. Basically. You know, there's been some 
exceptions in the past, depending--it even started 2 years ago, 
when you had the code levels, and depending on----
    Mr. Nadler. Is there----
    Mr. Kelly [continuing]. The different codes and what is----
    Mr. Nadler [continuing]. In your opinion, any logical 
reason why personnel costs are disfavored, or should be 
disfavored, in terms of reimbursement policy, by the Federal 
Government?
    Mr. Kelly. None that I can see. If it's, you know, spent 
responsibly, with adequate oversight, I see no reason to limit 
it.
    Mr. Nadler. Does this preference--would you say that the 90 
percent figure for personnel costs is unique to New York City, 
or is pretty usual, or----
    Mr. Kelly. I would say it's probably across the board. We--
our personnel costs, generally speaking, are about 94 percent 
of our total budget.
    Mr. Nadler. No, no, no, but I mean is 90 percent cost of 
the counterterrorism program in New York typical of what other 
cities spend on counterterrorism?
    Mr. Kelly. Yeah, I'm assuming it is, yes.
    Mr. Nadler. So, the Federal disfavor of personnel simply 
gets the Federal budget contributions to counterterrorism down. 
There's no particular reason. In other words, we only consider 
10 percent of the costs.
    Mr. Kelly. Correct. You can only buy so much equipment, you 
know?
    Mr. Nadler. Right.
    Mr. Kelly. Our ongoing costs are personnel costs.
    Mr. Nadler. So, the only real function of--from the Federal 
point of view, of making that distinction, is to reduce the 
perceived necessity of Federal grants.
    Mr. Kelly. Perhaps, yes.
    Mr. Nadler. Can you think of any other legitimate function?
    Mr. Kelly. No.
    Mr. Nadler. Okay. Now, you said that the Operation Torch 
would be made less grant dependent as Hercules is, and that's 
because----
    Mr. Kelly. I'm sorry. Less grant dependent. Torch----
    Mr. Nadler. Than----
    Mr. Kelly. Torch is a grant.
    Mr. Nadler. It is.
    Mr. Kelly. It is funded by a grant. But, the other programs 
are not.
    Mr. Nadler. They're not. As you say--and, in other words, 
you said Hercules is not funded by a grant.
    Mr. Kelly. That's right.
    Mr. Nadler. Torch is. You anticipate that Torch will be 
made less grant-dependent. Is that because you anticipate that 
after a specific time period, the Federal Government will not 
continue to provide funding for--of personnel, in effect?
    Mr. Kelly. Well, this particular program only goes through 
2010.
    Mr. Nadler. The program or the grant?
    Mr. Kelly. The grant.
    Ms. Clarke. The grant.
    Mr. Nadler. But the grant might be renewed.
    Mr. Kelly. Possibly----
    Mr. Nadler. There's a possibility.
    Mr. Kelly [continuing]. Yes.
    Mr. Nadler. Okay. In general, what is--well, let me just 
ask one other question.
    You have a--there are various means of protection of 
radiation and so forth, to protect against nuclear materials 
hopefully coming in--hopefully not coming into the subway 
system and so forth?
    Mr. Kelly. Yes.
    Mr. Nadler. Now, there was an article in the recent issue 
of Scientific American that says that our means of detecting 
nuclear materials basically don't work. Are you familiar with 
this article?
    Mr. Kelly. I'm familiar with the concept. We have talked 
about it. I didn't read the article, but----
    Mr. Nadler. Could you comment on that?
    Mr. Kelly. Well, we believe that there are new, state-of-
the-art radiation detection means or equipment coming down the 
pike and we----
    Mr. Nadler. Yeah, we're aware of that.
    Mr. Kelly [continuing]. We hope to receive that through the 
Securing the Cities program, which I believe you're familiar 
with.
    Mr. Nadler. So, these new technologies you think will work 
much more effectively than the ones we have now.
    Mr. Kelly. Yes, we believe, yes.
    Mr. Nadler. Do you have a time period or--that you can say 
publicly as to when we might have them?
    Mr. Kelly. We hope to have this program, the Securing the 
Cities program, which is basically concentric rings around the 
city, 50 miles out, and coming into the city. Some of the 
equipment, we have radiation detectors, which are improved 
versions of what we had a few years ago. We have that, and we 
are deploying that to other jurisdictions.
    But the--kind of the heavy duty radiation equipment will 
probably be coming in within the next 18 months.
    Mr. Nadler. Thank you. My final question is do you regard 
the Federal grant structure as we have changed it--we've been 
arguing for years that--I say ``we''--the New York delegation, 
basically, has been arguing for years that the criteria by 
which Federal antiterrorism grants were distributed were 
unfair, not based on a real assessment of risks, based on 
politics, and so forth. We have managed to change that 
somewhat.
    Do you regard the current structure as rational, and 
reasonable, and sufficient?
    Mr. Kelly. It is better than it was----
    Mr. Nadler. Right.
    Mr. Kelly [continuing]. But it needs to improve, and I 
certainly give credit to the New York delegation. Because, we 
have seen improvements, and it hasn't been an easy road. No 
question about it. But, I think----
    Mr. Nadler. So, do you think it needs further----
    Mr. Kelly [continuing]. Some people are being dragged, 
kicking and screaming, to what's a better position.
    Mr. Nadler. Okay. I thank you, and I yield back the balance 
of my time.
    Ms. Jackson Lee. I thank the distinguished gentleman.
    As you leave, let me quickly indicate that we will submit 
additional questions and maybe the same questions, for answers 
in writing, and we would appreciate, Commissioner Kelly, if 
your office could work with us on some of the questions.
    But quickly, as you leave, I wanted to just determine the 
mass transit police force is under the NYPD?
    Mr. Kelly. That's correct.
    Ms. Jackson Lee. Integrated into it?
    Mr. Kelly. For the New York City subway system, yes.
    Ms. Jackson Lee. Is there a number for those individuals? 
What is the breakout? You gave us 37,000, I believe----
    Mr. Kelly. Twenty-six hundred.
    Ms. Jackson Lee. Twenty-six hundred. Do you think that's 
enough?
    Mr. Kelly. Well, I think the department, as a whole, should 
increase in size. As I said, we are not able to hire up to our 
authorized headcount.
    Ms. Jackson Lee. You had said----
    Mr. Kelly. If we were able to do that, we'd deploy more 
officers in the transit system, yes.
    Ms. Jackson Lee. My other question is, as you well know, 
one of our colleagues, Congresswoman Lowey, has been working 
with all of us on this interoperability.
    Do you think you're at the level that you need to be for 
interoperability, in terms of communication, with the 
backdrop--the sad backdrop being 2001, and that was certainly 
one of the issues that was discussed.
    Mr. Kelly. I think we are in very good shape, as far as 
interoperability and the ability to communicate among city 
agencies, and we are getting there regionally.
    But, in terms of operating in the city, under the Mayor's 
CIMS system--the Citywide Incident Management System--I think 
we are in very good shape. I think there is some misinformation 
about what happened in 2001.
    I was not in this job on September 11, 2001, but still 
there's some misinformation. It really wasn't an 
interoperability issue. Don't get me wrong. The 
interoperability is a good thing----
    Ms. Jackson Lee. Um-hmm.
    Mr. Kelly [continuing]. But there's just--and, we can talk 
about it at another time.
    Ms. Jackson Lee. We would be delighted to have you talk 
about it. Obviously, I think, Congress needs to be as informed 
as it can be, and certainly we viewed it as a crisis, and it 
was publicly represented, I imagine, that that was a crucial 
issue.
    Your interoperability is funded by the city or Federal 
dollars? Your improved interoperability.
    Mr. Kelly. It's mostly city funds, but a lot of our 
interoperability is just taking place through the CIMS system, 
which requires face-to-face interaction between the leadership 
elements of various city agencies.
    Ms. Jackson Lee. Let me thank the witness for his 
testimony, and his presence here today, and his time, and, as 
well, you have indicated your statement is in the record.
    We hope to submit additional questions to your office, and 
would appreciate your due cooperation as you have already done, 
in responding to them.
    Thank you for your service, and we appreciate the fact of 
your other responsibilities today.
    Mr. Kelly. Thank you.
    Ms. Jackson Lee. Again, thank you.
    Mr. Kelly. Thank you very much.
    Ms. Jackson Lee. All right.
    To the other witnesses, let me thank you very much. You 
won't get away as easy. We appreciate the time that you're 
giving.
    So, Secretary Balboni, you are able to present your 
testimony. If you would, summarize your statement in 5 minutes.

   STATEMENT OF MICHAEL BALBONI, DEPUTY SECRETARY FOR PUBLIC 
                   SAFETY, STATE OF NEW YORK

    Mr. Balboni. Thank you, very much, Madame Chairwoman. 
Congresswoman Clarke, and Congressman Nadler, thank you very 
much for not only your attendance and your dedication, but your 
focus on this crucial issue as it relates to so many millions 
of people on a daily basis.
    When I first took this job, I looked at the protection of 
the system regionally, which is exactly what the Department of 
Homeland Security said we ought to be doing. Essentially, there 
were four elements that I looked at: One was the identification 
of vulnerabilities; the second was the means and methods that 
might be used by the attackers; the third was the training of 
personnel; and the fourth was the threat and information that 
could come across.
    So, one of the first meetings I had, which was with this 
gentleman who just left, Commissioner Kelly, I sat in his 
office, and we talked about some of the vulnerabilities of the 
system.
    Again, three States, seven different counties. When you 
consider the number of transit systems that run independently, 
it's about eight, one of the most complex transit systems, as 
my good former colleague from the Assembly, Congressman Nadler, 
understands probably as well as anybody in the Nation. So, 
securing a system that is open, by definition, and as complex 
and as vulnerable, is a huge challenge.
    So, what did we do? Well, the first thing we did, we chose 
the No. 1 vulnerability. Unfortunately, in a 2006 open source, 
there was a reference to the New York City PATH System. So, I 
met with the leadership of PATH, and one of the assets that I 
have in this directorate is the National Guard. So, what we 
established for the first time was a bi-State cooperation 
between New Jersey and New York to utilize National Guard 
members to do what they call ``pop-ups,'' where they work with 
police officers to show force and presence on the platforms 
and, while working with the police, ride the trains.
    The second thing we did was a follow-on for the 
Metropolitan Transportation Authority, that did directed 
patrols. Essentially, the key in utilization of personnel is 
force multiplication.
    You cannot be everywhere you want to be. Ray Kelly has a 
huge force, does a terrific job, and 2,600 officers sounds like 
a lot. Given the length and breadth of the system, it is not 
enough. He has to rely on outside forces, from the States, from 
the cities, from the counties.
    So, what we did was, we said, basically, if you have a 
train that is in Croton-Harmon, or is out in Suffolk County, 
and you are doing a patrol--Nassau County or Westchester--come 
and actually do the patrol at the train station. Do the step-
on/step-off, again showing force. It has been demonstrated time 
and time again that, in pre-operational surveillance of our 
attackers, what they can't stand and can't judge is chaos, 
unpredictability, and that is the use of force effectively.
    Another thing we did was we developed a rail freight safety 
system, where essentially we have taken a look at how freight 
goes through New York. We have worked with all the freight 
companies to make sure that there is intelligence--CSX in 
particular. So, what we have right now is a real-time 
operational capability of seeing what's on the trains and where 
they are. So this is, obviously, crucial from a terrorism 
perspective.
    It's also crucial from an industrial disaster perspective. 
You know, if you have a rail car that goes up in Selkirk, New 
York, one of the responsibilities I'm going to be charged with 
is overseeing the evacuation. Well, they key fact that I need 
to know is what's in that rail car as fast as possible. So, New 
York State was one of the first States in the Nation to have 
this CSX program.
    The other thing that we did was we took a look at how the 
National Guard is being used in a form of deployment called 
``Empire Shield.'' We were one of the first in the Nation to 
establish this force. Essentially what it is, is that airports, 
nuclear power plants, and train stations, you have National 
Guard members standing watch.
    But, what we realized, through the help of TSA, is that 
after 6, 7 years after the event, they tend to get stale. They 
do what people do all the time. They talk to one another. They 
do not patrol.
    So, what we are establishing as of May 1, is a brand new 
capability. We believe this is, again, the first of its kind in 
the Nation. It's going to be at Fort Hamilton, right here in 
Brooklyn.
    What we are going to do is we are going to pull the 
National Guard out of the rail stations and the airports, and 
we are going to use them in a surge capability. We are going to 
create 24/7 hot start company-sized deployment capability. We 
are going to use them to go surging in with the police, with 
Ray Kelly's troops, and with the MTA troops to, again, bring 
that unpredictability.
    But, what we are also going to have is the ability to 
respond rapidly, leveraging other assets. New York has the Air 
National Guard, a very unique capability. We have an airlift 
capability we are going to be utilizing. We have a navy. We 
have eleven swift attack boats, essentially, that has the 
ability to offset any of the surge requirements for the New 
York City Harbor Patrol. Then, we are going to have a chemical 
company there.
    Hopefully, with your support, a second CST--civil support 
team. We in New York use our CST all the time. I cannot make 
enough of a pitch to support us in getting that second team.
    This capability will be provided regionally. It will help 
New Jersey. It will help Connecticut. It will help Long Island. 
It will help Westchester. Help, obviously, the city of New 
York.
    But, the key factor--if I had--if I have had any impact or 
any influence in the process since obtaining this position, it 
was in the Regional Transportation Security Working Group. 
This, as you have mandated, is the group that is supposed to 
put the funding together across various systems.
    Well, when I first got here, frankly, it went like this. 
The largest of the systems threw up a project, and if it stuck, 
that's what got funded. The smaller systems almost never got 
any of the funding. There was not really a sharing of 
information because it is almost like market share. You don't 
want to tell your competitors what your vulnerabilities are.
    But, what we were able to do was, in secret, classified 
briefings conducted by the TSA, we essentially looked at all 
the vulnerabilities and the gaps across the entire system. Kip 
Hawley, the Chairman of TSA, tells me that we are the first 
regional transportation work group to do that in the Nation.
    What came out of that was the ability to recognize system-
wide enhancements--bomb dog teams, behavioral assessment 
screening teams, counter-surveillance teams. These are the 
pieces that we must focus on if we are going to use the funding 
effectively.
    When Ray Kelly talks about the personnel issue, what he 
means is that when you have a bomb dog team--the bomb dog team, 
the dog is considered capital, the officers who use the dogs 
are not. That's kind of ridiculous. But luckily, we have been 
able to change that.
    There is more work to be done. I look forward to discussing 
that in your questioning.
    Ms. Jackson Lee. Thank you.
    [The statement of Mr. Balboni follows:]

                 Prepared Statement of Michael Balboni
                             April 25, 2008

                   PUBLIC SAFETY--OUR MOST BASIC DUTY

    Thank you, Chairwoman Jackson Lee, Ranking Member Lungren, and 
Congresswoman Clarke for inviting me to appear before the House 
Homeland Security Subcommittee on Transportation Security and 
Infrastructure Protection to discuss securing New York's mass transit 
systems. My name is Michael Balboni and I am Governor David Paterson's 
Deputy Secretary for Public Safety. I have day-to-day responsibility 
for managing the State's homeland security affairs, emergency 
preparedness and response, and law enforcement activities. In 2006, I 
was appointed to the United States Homeland Security Advisory Council. 
In that role, I help leverage the ingenuity and expertise of State, 
local and tribal leaders to provide Federal Advisory Council members 
with the best possible advice on a range of homeland security issues.
    I am pleased to share with the committee the steps the State of New 
York has taken with its regional partners to better protect and secure 
New York City's mass transit systems. Securing a deliberately open 
system that must move millions of people quickly and easily each day is 
challenging, but through effective multi-agency collaboration we have 
made tremendous progress to enhance transit security.
    It is well-established that New York remains a top terrorist 
target. In addition to terrorism, hurricanes, natural disasters and 
health-related emergencies prove our need to be ready to care for and 
protect our citizens. Although nearly 6\1/2\ years have passed since 
the attacks of September 11, 2001, New York State demands sustained 
excellence in our emergency preparedness plans and homeland security 
initiatives.
    Last year's thwarted plot to ignite jet fuel tanks at JFK 
International Airport in Queens reminds us that people with very bad 
intent, if not the immediate means of doing harm, have New York 
squarely in their gunsights. It was only through meticulous 
investigation--``boots on the ground'' police work--and, most 
importantly, the ongoing cooperation among law enforcement agencies led 
by the FBI and New York City Police Department that this plot was 
uncovered.
    This event proves that we must continue to be ever vigilant--from 
our first responders who are our front line of defense to every citizen 
in this State. And it is yet another reminder to the public that if you 
see something suspicious, contact local law enforcement or call the New 
York State Terrorism Tips hotline at 1-866-SAFE NYS. In New York City, 
call 1-888-NYC SAFE.
    Because threats evolve and maintaining readiness for disaster is a 
dynamic business, I would like to outline the major initiatives 
launched by New York State.
    We know that terrorists around the world continue to focus on mass 
transportation targets. New York State has joined with its Federal and 
local partners to enhance transit security, and we are continuing to 
make regional rail security more robust by enacting these steps:
  <bullet> Joint National Guard/Port Authority Police ``pop-up'' 
        patrols have been implemented on the PATH system. New York 
        State led this effort and worked cooperatively with our 
        security partners at the Port Authority and the State of New 
        Jersey.
  <bullet> The Metropolitan Transportation Authority has launched a 
        ``Directed Patrol'' strategy for the region's commuter rail 
        systems (Metro North and Long Island Railroad). Working with 
        local law enforcement agencies in the communities these trains 
        travel through, police officers now regularly visit outlying 
        stations, platforms and parking lots to provide high visibility 
        deterrent patrols.
  <bullet> New York State Police, the Transportation Security 
        Administration and local police departments in the upstate 
        cities of Syracuse, Utica and Rome are conducting rail 
        passenger screenings at Amtrak stations.
  <bullet> Rail Freight safety has been improved by working with the 
        private sector. CSX Transportation has provided secure access 
        to State law enforcement and Homeland Security officials 
        regarding near real-time information on its hazardous materials 
        rail movements.
  <bullet> We are also in the process of establishing a standing New 
        York National Guard ``surge'' force headquartered at Fort 
        Hamilton in Brooklyn. This new unit will respond quickly to 
        threats in the New York metropolitan area, mobilizing key 
        equipment and manpower to protect critical infrastructure and 
        respond to incidents should they arise.
    Additionally, we are enhancing the training for our valiant first 
responders, who are our State's front line of defense. We are providing 
threat-based training to hundreds of first responders from across New 
York State at the State's Preparedness Training Center in Oneida 
County.
    We also have implemented a renewed focus on cyber security. New 
York State has long been a leader in this field, serving as the lead 
information sharing and analysis center for all 50 States. Most 
recently, New York has focused on helping local governments achieve the 
cyber security necessary to protect the computer control mechanisms of 
critical infrastructure owned and operated by municipal governments 
such as dams, water and traffic systems. The New York State Office of 
Cybersecurity and Critical Infrastructure Coordination also works 
closely with the MTA on cyber security issues, providing insight on 
data encryption and other key security measures.

                        TRANSIT SECURITY FUNDING

    The State's efforts culminated in Secretary Chertoff announcing a 
substantial increase in transit security funding for the New York City 
metropolitan region in February.
    The Secretary announced a fiscal year 2008 award of $153 million, a 
substantial increase from the fiscal year 2007 grant award of $98 
million.
    The grant award recognizes that the threat to New York remains of 
paramount concern and that New York's ridership of mass transit and the 
economic importance of the system requires increased investment. I 
would like to thank Congresswoman Clarke, Congressman King, and the 
entire New York Congressional Delegation for their help in passing a 
robust fiscal year 2008 homeland security appropriations bill that 
increased funding for transportation security programs.
    The grant also recognizes the incredible partnership of the 
Regional Transit Security Working Group (RTSWG). This effort--long 
encouraged by the Federal and State government--views mass transit as a 
regional issue involving such partners as the MTA, the Port Authority 
of NY & NJ, New Jersey Transit, the NYPD, Amtrak, TSA, NYC DOT, the 
States of NJ and Connecticut, the ferry system and Westchester County 
DOT.
    Representatives of these great partners came together to reach 
consensus on priorities for the 2007 round of funding and worked hard 
to develop a comprehensive program aimed at addressing transit needs. 
The NYPD and TSA were added to this partnership effort for 2007. We are 
extremely proud of the work of the group, which put aside parochial 
interests and focused on a regionalized approach to mass transit 
safety.
    Investments recommended by the group in 2007 included security 
cameras, an increase in the number of explosive detection canine teams, 
specialized training for law enforcement personnel and new explosive 
detection technologies.
    We have always recognized that risk should drive funding decisions 
and are happy to see that 45 percent of the national share of 2008 
transit funds are coming to the New York metropolitan region. This is 
an important statement of support for the case that we have made to the 
Nation.
    In applauding the Federal Government for that recognition in the 
context of transit security, I continue to hope that such appreciation 
and understanding will be applied to all of the Federal homeland 
security grant programs.
    It would also be remiss not to mention another equally important 
aspect of this transit award that satisfies another suggestion New York 
and its regional partners have long expressed to the Federal 
Government, which is that the transit grant programs be permissive in 
allowing the dollars to be used for personnel costs. We strongly 
support the committee's efforts to ensure that State and local 
governments have the flexibility to use grant funds for personnel 
related expenditures.
    Federal dollars should be applied where they are most effective and 
time and time again we have learned that investing in operational 
packages related to transit security (VIPER teams, the K-9 teams) are 
one of our most effective public safety tools.
    I am pleased that this grant will allow such investment at a local 
operational match share of 33 percent, which is less than the 50 
percent match required in the 2007 program.
    I am proud that Federal DHS has recognized our efforts at the State 
and city level, but I am most pleased that this grant really recognizes 
the efforts of the Regional Transit Security Working Group (RTSWG) 
participants.
    It is never easy to bring the various entities of government 
together but because security is so important, we have succeeded in 
doing that within the RTSWG concept.
    We have built on our success in 2007 with recognition from our 
Federal partners and a vibrant cooperative effort that will demonstrate 
a coordinated and robust public security strategy across the three-
State metro region.
    The Federal Government continues to indicate that as available 
homeland security resources decline, it is important to develop 
regional approaches and regionalized security strategies.
    The February 1, 2008, announcement was proof positive that New York 
made its case and is effectively leveraging an important regional 
partnership. TSA has recognized the value of the RTSWG and rewrote 
their fiscal year 2008 grant guidance to encourage more grantees to 
follow the collaborative model New York developed.
    I want to commend the partners of the RTSWG for participating in 
that effort and making New York's mass transit systems safer. I also 
want to thank Secretary Chertoff and our Congressional Delegation for 
their continued support to our efforts.
    Chairman Jackson Lee, Congresswoman Clarke, and Members of the 
committee, thank you for giving me the opportunity to discuss New York 
State's transit security activities. With your support, we will 
continue to build on the progress we have made to date. I would be 
happy to answer any questions you might have.

    Ms. Jackson Lee. The gentleman's time has expired. Let me 
also acknowledge our appreciation to Governor David Patterson. 
Please give him our regards.
    Mr. Balboni. I will.
    Ms. Jackson Lee. Certainly, in the absence of Commissioner 
Kelly--we appreciate both of them, Governor Patterson, looking 
at his schedule and attempting to be present. But, we also 
appreciate that he designated such an important witness.
    We want to, in his absence, acknowledge that Mayor 
Bloomberg was trying to change his schedule, as well, but we 
acknowledge the presence of Commissioner Kelly.
    President Little, we are delighted to have you here, and we 
also want to thank Roger Toussaint for his great leadership in 
Washington. Again, your presence is very important.
    You are now recognized for 5 minutes.

    STATEMENT OF JAMES C. LITTLE, INTERNATIONAL PRESIDENT, 
                  TRANSPORTATION WORKERS UNION

    Mr. Little. Thank you. First of all, I would like to 
commend the committee, certainly Bennie Thompson and yourself, 
for your leadership in moving this 9/11 bill, I mean, not only 
for the shepherding of it, but bringing it to fruition. I think 
it's so important that we continue to exercise oversight over 
it.
    I think it's one of the strongest security measures ever 
passed for the protection of surface public transportation and, 
in addition to that, providing mandatory security training for 
all rail and transport workers. I thought what I would do is 
just cover a couple of the salient points that I actually 
submitted in written testimony.
    But, one of the things that I think is very important is 
the continued oversight. The implementation of the 9/11 
Security Bill has made certain that the grant programs are 
conditioned on the application of 13(c) and also the labor 
protections of the Davis-Bacon. Despite that, the executive 
branch has actually done everything possible, especially in the 
rail and transit programs and guidance it covers, to require 
its in entirety. So, they have actually taken steps to avoid 
that inclusion.
    I think it's also important that we ensure that the 
training mandates included in the 9/11 bill are implemented in 
a timely manner, and that frontline workers are directly 
involved in the process. We have already missed two steps by 
the Department of Homeland Security, which failed to reach the 
deadlines both in Section 1408, which is the Public 
Transportation Security Training Program, and also Section 
1517, which is the Railroad Security Training Program.
    We have also seen that in the funding coming up by the 
President for 2009, the executive branch has taken the position 
that they are going to reduce the funding for those two types 
by 85 percent, which they promised on the signing of the bill 
we would have $1.2 billion for transit and rail, and now that's 
been reduced to $175 million. Now, that goes to what 
Commissioner Kelly was saying, the need for proper funding.
    Now, the security and emergency preparedness duties, the 
positions of people on board, such as we represented Amtrak, 
where we have the cashiers on board for service, these are also 
people that are obviously trained. They are trained in all 
different measures of security, including CPR. They handle 
everything from a nose bleed to being the first-time 
responders. As soon as there is a budget crisis, the first ones 
we want to cut is those people, and we want to end up putting 
in vending machines.
    If you looked at the same similarities, we would actually 
be looking to do the same thing in the aviation, where we see 
the need to remove flight attendants and put on some kind of a 
vending machine, which everyone knows that the purpose of 
having these people on board are not only for to service the 
passengers, but also there in an emergency situation. I would 
like to encourage the committee to take a look into that.
    We have also learned a lot from what we have experienced in 
other countries. Certainly what we saw in Spain assured us 
that, in no uncertain terms, that aviation is not the only 
vulnerable area. We have seen what happened in the rail.
    We have also seen what has happened in London. We have had 
the opportunity visit London and talk to some of the 
counterparts in the labor side. We also met with Labor for 
London Transportation Authority under the Mayor, and one of the 
things I felt was very impressive is that they haven't looked 
to reduce manning, but actually increased manning, and they 
have actually put manning in the turnstiles.
    A lot of people we talk about having frontline workers as 
frontline responders, I think that, to coin a phrase, they are 
also ``pre-responders.'' No matter how many cameras you put and 
technology into these stations, and they are doing the same 
thing on the buses over in London, it doesn't take away from 
the human element. These cameras can decipher and tell where 
the problem is, but it takes a human to actually do that.
    As Ms. Clarke said earlier, I think that there is not one-
size-fits-all. You know, the Transport Workers Union, we 
represent a lot of--130,000 members in a lot of the major 
transportation areas, both in Philadelphia--in New York City, 
we have about 38,000 workers within the MTA. We represent the 
METRO in Houston, also in San Francisco, in Miami. We have 
frontline workers in the airline side. We are also in the rail.
    As Mr. Nadler had mentioned, he talked about Amtrak, and 
that's the area that I was focusing on, because the first thing 
Amtrak wants to do, and we fought it once before, was to remove 
the on-board service people. I included in my testimony some 
examples of exactly where they have played a vital role for the 
passengers. Also, as you know, trains move across the country. 
A lot of times, you are in rural areas and you can't have 
people that are just serving food and not expect in an 
emergency to have someone there to help service them.
    We ran, again, into the same problem in New York City 
where, due to budget cuts, the MTA wanted to reduce the 
conductor. The conductor on a subway train is about mid-ship on 
the train. They are there to make sure that passengers on 
board, no one gets caught, and actually for some security 
measures, and also for eyes and ears for the driver. Yet, that 
was an area that they wanted to eliminate.
    I thought it was very intriguing that when I was in London, 
even the automated trains, the London for Transport, decided to 
man them. I talked to one of the personnel on board and I asked 
him specifically--I says, ``Why are you manning an automated 
train?'' He says, ``Well, because we believe security is an 
important piece,'' he says, ``and a lot of time,'' he says, ``I 
can override the train in an emergency.'' He said, ``Also, the 
fact that I'm walking around,'' he said, ``it's eyes and ears 
and people--it's a deterrent.'' I think we have to not lose 
sight of that. We happen to lose sight of having first 
responders.
    The police department can do a lot of things, certainly the 
task force that the Commissioner talked about. But, having 
people on board, and just having people that--New York City 
alone, highly tourist popular. People are in and out of the 
subway system. It's a viable source of getting around the city. 
They rely on help.
    Yet, by reducing people in those stations, you have 
actually taken that away. You can't get it from an automated 
machine. So, I think it's very important that we continue to 
find ways to improve.
    I'm a little disappointed that the--in part of the 
regulations that are put together, we have Federal regulations 
for airlines, and we certainly have the ability to put Federal 
regulations for administration in rail, and yet we fell short 
of including certain security measures in that. I think that's 
something that really has to be taken a look at.
    I'd also welcome any questions and answers that you may 
have, and I'm trying to stay within the--the 5-minute rule.
    Thank you, very much. I appreciate it.
    [The statement of Mr. Little follows:]

                 Prepared Statement of James C. Little
                             April 25, 2008

    The Transport Workers Union of America, AFL-CIO (TWU) on behalf of 
its 130,000 members in the transportation industry, including airline 
workers, railroad workers on Amtrak, rail freight lines and Metro North 
and transit workers in numerous American cities including Philadelphia, 
Miami, Houston, and San Francisco as well as the MTA workers in New 
York City, appreciates the opportunity to appear before this committee.
    Before I speak to the security threats still facing the industry I 
would like to commend the committee and its Chairman Bennie Thompson 
and Subcommittee Chairwoman, Sheila Jackson Lee for the exceptional 
steps you have already taken to improve transportation security in 
drafting and shepherding through to passage the 9/11 Security Bill. I 
think we can say without hyperbole that this bill comprises the 
strongest security measures ever passed into law for the protection of 
surface public transportation.
    The 9/11 bill's mandatory security training for rail and transit 
workers; the security funding and the grants to implement this training 
reverses decades in which this critical component in transportation 
security has been ignored in favor of well-lobbied, expensive 
technology that never makes it out of beta testing.
    The 9/11 bill further integrates frontline workers into the 
transportation security umbrella by providing strong whistleblower 
protection; a requirement that 13(c) transit labor protections be 
attached as a condition on all grant programs; and requiring an 
unprecedented degree of consultation and input from labor organizations 
representing these workers.

                IMPLEMENTATION OF THE 9/11 SECURITY BILL

    At the same time as we praise the bill, and before I go on to a 
broader discussion of security needs in the industry, I would be remiss 
if I did not call attention to the woeful lack of implementation of the 
9/11 security bill by the executive branch, especially those parts 
dealing with rail and transit security.
    To date there has been no rulemaking on the implementation of the 
mandatory security training of frontline workers. And, while there has 
been program guidance issued on the grant program, this guidance 
blatantly disregards the explicit language of the law requiring 13(c) 
transit labor protection and Davis-Bacon prevailing wage protection as 
a condition of all grant programs. The program guidance we have seen so 
far omits this requirement entirely.

                  GRANT PROGRAM COMPLIANCE WITH 13(C)

    The requirement for continued 13(c) labor protections was designed 
by this committee to make certain the grants were designed to implement 
genuine security improvements, not as a devious way to get around 
decades-old labor protections. This committee, which was adamant about 
its inclusion in the legislation, understood that one does not get the 
wholehearted cooperation of frontline workers needed to make this 
program work, if one is undermining other protections they enjoy under 
their labor agreements.
    Law and Order does not mean the ``law'' is whatever the executive 
branch ``orders'' it to be. We strongly solicit the committee's 
assistance in preventing the executive branch from ignoring legislated 
requirements they don't happen to like--13(c) transit protections and 
Davis-Bacon in particular.
    We are also deeply concerned that the grant program, which we 
support, is proceeding while the security training program stalls. It 
would be a great disservice to mass transportation if grants were 
awarded and spent on other matters before the vital security training 
of frontline workers even gets underway.

                       9/11 SECURITY BILL FUNDING

    And, before I leave the subject of the 9/11 Security Bill, let me 
make one more observation. Some people say that no legislative issue in 
Washington ever goes away. But, with the strong bipartisan agreement 
around the need to protect our transportation system from terrorism, 
one might have expected the 9/11 Security Bill to be the exception.
    Unfortunately we see in the fiscal year 2009 budget submitted by 
the President that is not the case. The President appears quite willing 
to talk about improving security. However, his request for $175 million 
for public transportation and rail security is 85 percent less than the 
$1.2 billion promised when he signed the 9/11 bill. It appears that the 
fight to implement this ground breaking legislation will have to be 
taken into the budget battle. I want to underscore our willingness to 
work with the committee to assure full funding for this important 
measure.

                       TRANSIT AND RAIL SECURITY

    It will come as no surprise to anyone, least of all this committee, 
that aviation security has received the lion's share of attention and 
funding. Nor can the explanation lie solely with the horrific attack of 
9/11. Even after the terrible attack on the Spanish railroad 
demonstrated the vulnerability of other forms of public transportation, 
transit and rail remain far more open to such attacks than does air 
travel.
    Part of the explanation is undoubtedly that airplanes are easier to 
secure. Unlike transit, for example, passengers do not get on and off 
airplanes in mid-trip. Hopefully. Air travel lends itself to secure and 
sterile perimeters.
    But the fact that transit and rail travel is difficult to secure, 
and that it may never be as secure as air travel, does not explain the 
minimal, and in some cases nonexistent, efforts to improve security for 
transit and rail passengers.
    I believe part of the explanation lies in the culture of 
Washington. We take more seriously those matters that receive the most 
attention. Much of that attention is lobbyist-driven. And the degree to 
which lobbyists call attention to an issue is largely driven by the 
degree to which it offers U.S. corporations opportunities to profit.
    Securing airline perimeters lends itself to expensive hi-tech 
solutions--various screening and detection devices, biometric 
identification, etc. It's a small wonder that a Beltway cottage 
industry has grown up pushing for adoption and purchase of these 
technologies.
    Mass transit security, however, by its nature is more likely to be 
low-tech, as the committee recognized when it mandated security 
training for frontline workers. More needs to be done in this area, as 
I will discuss below.

        FRONTLINE WORKERS: THE KEY TO RAIL AND TRANSIT SECURITY

    One country that has struggled for years with domestic terrorism is 
Israel. While their domestic air transportation system consists of only 
a few flights a day and cannot be compared to ours, they do have an 
extensive bus system.
    In seeing what we could learn from their experience, the TWU was 
struck by the observation of an Israeli security expert that they 
relied most heavily on the eyes and ears of the workers on the scene. 
Israel has apparently developed a highly sophisticated training program 
to educate bus drivers and other employees on what to look for and how 
to deal with it as well as a rapid alert system that gets immediate 
response. In addition, I had the opportunity to lead a transportation 
delegation to London to visit their transit systems where again we 
observed, and discussed the benefits of having well-manned facilities 
at the ticket booths and turnstiles. They have also added frontline 
workers to their automated light rail system. Like Israel the London 
for Transport (LFT) has taken advantage of adding more frontline 
workers for security, and passenger safety. Perhaps these are areas our 
Homeland Security Department might benefit from studying.
    A great deal of attention has been given to the First Responders, 
those brave souls who are first on the scene of any attack. We need to 
pay as much attention to the ``Pre-Responders,'' if I can coin a word--
those people who are on the scene before an attack occurs and may be 
able to prevent it from even occurring.
    I know I am preaching to the choir here--this committee was first 
and foremost to recognize the importance of these frontline workers and 
to mandate their training in the 9/11 bill.
    But training is not the only issue here. There is the further issue 
of having sufficient workers on the spot to observe and react. This is 
obviously not an issue with a bus where ``one bus, one driver'' assures 
there will be someone there. This is not always the case in other 
areas.
    High-speed rail systems like those in New York, Philadelphia, Miami 
and other mass transit systems represented by the TWU are often the 
scenes of criminal attacks. Underground subway stations, in particular, 
seem to lend themselves to this as recent high-profile crimes in 
Philadelphia's SEPTA system and New York's MTA can attest. And wherever 
a criminal can strike, there is an opening for terrorism as well.
    Cameras in stations are all very well. But a camera cannot evaluate 
what it sees. There is no substitute for station cashiers who can 
observe suspicious or hostile activity and report it. Furthermore, 
nothing so reassures passengers than the presence of a station employee 
keeping them from being the only living, breathing human being in the 
station. Passengers themselves are more likely to report suspicious 
activity to a human presence than through some communication device 
that may or may not work.
    What works against violent crime in these situations, generally 
works against terrorism--the presence of eyes and ears, training to 
recognize situations and the ability of workers to react in a positive 
manner.
    Yet many transit systems, driven by the same cost center/profit 
center mentality prevalent in the private sector, seem intent on 
replacing as many cashiers as possible with automatic, mechanical fare 
collection. ``Collecting fares?'' the argument goes--``a machine can do 
it.''
    But this reductionism can prove lethal in a mass transportation 
setting. Ignoring or defining out of existence the security-related 
functions of rail and transit workers takes out of play our single best 
deterrent.

                     RAIL: ON-BOARD SERVICE WORKERS

    The single best example of this is the attempt to replace Amtrak's 
On-Board Service Workers with privately contracted workers to dispense 
food and drink. Again the argument is made: ``anyone can dispense food. 
They're just glorified McDonald's workers.'' Hardly.
    On-Board Service Workers are currently required by Amtrak and by 
law to undergo extensive emergency preparedness training and to be 
prepared to assist in everything from emergency train evacuations to 
first aid, CPR and the use of the public address system during train 
emergencies.
    Passenger trains, unlike McDonald's, travel throughout the 
country--many times in locations where access to Emergency Medical 
Service personnel may be nearly impossible. On-Board Service Workers 
are trained as first responders to deal with everything from chemical, 
biologic or radiological attack to a simple nosebleed.
    Over the years, in response to a variety of crises, the National 
Transportation Safety Board has suggested additional responsibilities 
to their assignment and recommended Amtrak's implementation, and 
training.
    The record is replete with examples of On-Board Service Workers, 
members of TWU Local 1460, dealing with emergencies as varied as 
putting out fires, evacuating trains under bomb threats or after 
derailments, and providing first aid medical assistance to passengers 
until help arrived.
    We have attached an appendix (Appendix A) outlining this record.
    Nonetheless, Amtrak management is sorely tempted by its recurrent 
financial crisis to cut safety and security corners by replacing On-
Board Service Workers with food dispensers. Again, I want to emphasize 
how short-sighted this would be and how much rail security depends on 
the presence of these workers who not only see to passenger comfort in 
normal times but provide essential emergency assistance when things go 
wrong.
    And unlike airlines where Federal Airline Regulations (FAR's) and 
Transportation Security Regulations (TSR's) have updated specific rules 
that apply to aircraft security, Federal Railroad Administration 
Regulations (FRAR's) and TSR's are behind the times in updating 
railroad security requirements. This should be addressed.

                 SECURING VEHICLES WHILE NOT-IN-SERVICE

    The other great vulnerability of public transportation systems is 
through the vehicles themselves. We are familiar with the threat to 
airplanes while being repaired or stored and protect them with a 
layered series of perimeters, employee checks and screening systems, 
both human and biometric. In the aviation industry we recognize that, 
given sufficient time, a terrorist with access to an aircraft can find 
any number of places to securely hide explosives or other lethal 
devices.
    Rail and transit vehicles offer no less of an opportunity for 
terrorism. The difference is that almost no effort is done to secure 
them from even casual attempts at access.
The Yards
    Rail yards are where trains, subways and elevateds are stored when 
not in service. Whether Amtrak or mass transit, the security is 
generally the same--a wall, a fence, maybe a little barbed wire for 
appearances. But workers have to get in or out. There are gates and 
doors, but rarely with the kind of security protections common where 
aircraft are stored. Rare is the rail yard where access is limited to 
those with an electronic swipe card much less anything more 
sophisticated. Nor are there sufficient guards, cameras, etc. to 
prevent anyone from leaping a fence to gain access.
Maintenance Shops and Bus Garages
    Maintenance shops are better secured than the yards. But not so 
secure that strangers can't wander in off the streets and walk off with 
expensive tools, a frequent complaint. There are often locked doors. 
But that is irrelevant when the openings for buses and trains to enter 
and leave the shops are generally kept wide open.
    In the case of bus garages where buses are constantly coming and 
going, it may be impractical to keep opening and closing the doors for 
each vehicle. Especially during load lines vehicle entrances and exits 
from bus garages must probably be secured by a guard checking IDs to 
allow access. But rail and transit maintenance shops and storage yards 
are susceptible to the same kinds of perimeter protections we apply to 
aircraft.
    I strongly urge the committee to look into implementing many of the 
procedures we use to secure aircraft with regard to rail and transit 
locations.

                  SUBCONTRACTING AND SECURITY BREACHES

    Further holes are blown in the security perimeter, such as it is, 
when Amtrak and transit agencies subcontract vehicle maintenance work.
    At the MTA, for example, all employees undergo criminal background 
checks. There is no such requirement of contractors and subcontractors 
whose employees access thousands of security-sensitive areas of the 
system.
    Then there is the problem of unidentified personnel wandering 
through the shop, moving vehicles, etc. Allow me to use the Beech 
Grove, Indiana, shop as an example (See attached letter of April 16, 
2008--Appendix B).
    Amtrak, like many agencies, has an Employee Security Handbook that 
seems convincing on paper. The company's handbook requires, for 
example, that ``Vendors and contractors must display their company 
identification and/or an Amtrak issued temporary identification while 
on company property'' and that ``Vendors must be escorted while 
entering restricted areas.''
    In the instance described in the attached letter, on April 16, 2008 
two unidentified men walked into the shop and attempted to power up a 
railway car. They displayed no identification and at first refused to 
identify themselves. They were without the required escort. Then, after 
saying they worked for subcontractor Image Mark, but without producing 
any identification and without engaging in any of the basic safety 
procedures, they powered up the car.
    Their ability to wander around the shop unescorted and actually 
access vehicles displays a gaping hole in security. This time they were 
subcontractors. Next time, who knows?
    The letter indicates this is far from the first time there have 
been problems with unidentified people wandering around the shop 
unescorted. Worse yet, these cars are often removed from the property 
for painting and other similar work. From the point these cars leave 
Beech Grove until they return they are entirely open to anyone who 
wishes to access them for whatever purpose. At times they have sat 
outside the building at Indiana Rail for days at a time, not locked and 
with no security whatsoever at the facility (See attached letter of 
April 9, 2008--Appendix C).

     THE CONTRADICTION BETWEEN COMPANY POLICES AND ACTUAL PRACTICE

    The Beech Grove, IN example is repeated endlessly across transit 
and rail properties. It illustrates one of the greatest difficulties in 
the Department of Homeland Security policing transportation security: 
there is often a world of difference between what companies say they 
are doing and what they actually do.
    Rail and transit agencies have scores of lawyers who advise them on 
the publication of safety and security manuals. They may issue numerous 
memoranda detailing the policies to be observed.
    But managers on the ground are driven by a different metric--get 
the work out! They are evaluated on how well they ``make the line'' 
(i.e. provide the requisite number of vehicles to fill the scheduled 
requirements on time). They are evaluated on the condition of the 
vehicles and the quality of the work.
    They are not evaluated on adherence to security procedures until 
there is a breach with consequences. Workers and their elected union 
representatives have hands-on knowledge of the actual security 
practices on the ground. They, unlike middle level managers who are 
responsible for implementing these procedures, have no self-interest in 
covering up failures to comply.
    Yet the Transportation Security Administration evaluates rail and 
transit security on the basis of reports from top level management. 
This committee wisely required worker input in the 9/11 bill. We need 
to go further and require that any determination of actual security 
procedures in the industry include a survey of workers as well as 
management. And, further, that any discrepancies between the two 
accounts be addressed in face-to-face meetings as well as onsite 
evaluations.

                         MAJOR RECOMMENDATIONS

    (1) We encourage the committee to exercise oversight of the 
        implementation of the 9/11 security bill and make certain that 
        all grant programs are conditioned on the application of 13(c) 
        transit labor protections and Davis-Bacon prevailing wage 
        protection.
    (2) Ensure that the training mandates included in the 9/11 bill are 
        implemented in a timely manner and that front-line workers are 
        directly involved in this process.
    (3) Work to secure full funding for the 9/11 security bill.
    (4) The security and emergency preparedness duties of positions 
        like cashier and on-board service workers should be enhanced 
        not eliminated. We should attempt to increase, not reduce, the 
        human presence in stations and on service vehicles. The 
        committee should encourage the requisite (Transport Security 
        Regulations) TSR's to be written and implemented.
    (5) As much as is practical, we should apply the lessons and 
        practices of securing aircraft to securing not-in-service 
        passenger rail and transit vehicles.
    (6) Any contracting out of passenger rail and transit maintenance 
        work or service must include a requirement of full adherence to 
        all the agencies' in-house security requirements.
    (7) Any TSA (Transport Security Administration) determination of 
        actual security practices in mass transportation must include 
        surveys and other input from frontline workers and their union 
        representatives. Discrepancies between their reports and 
        management's should be carefully investigated.

Appendix A.--Safety, Security, and Service: Job Functions of Amtrak On-
                         Board Service Workers

Prepared by Gary Maslanka, Vice Chair of Amtrak Service Workers Council 
        (ASWC)

Part I.--Applicable Federal Regulations
    Part 1 provides a listing of various Federal regulations, including 
FDA Standards that are applicable to Amtrak On-Board Service Workers. 
Some of these regulations mandate specific training, while others 
require that On-Board Service Workers both familiarize themselves, and 
comply with the regulation.

Part II.--Applicable Amtrak Rules & Policies
    Part 2 provides a listing of numerous Amtrak Rules and Policies 
that are applicable to and govern work performed by On-Board Service 
Workers. Several of these Rules and Policies require specific training, 
while others require that On-Board Service Workers both familiarize 
themselves, and comply with the Rule or Policy.

Part III.--Safety, Security & Service
    Part 3 provides examples of Amtrak's mandate that the Safety and 
Security of passengers, employees, and the public are On-Board Service 
Workers First Priority.
    III-A
    Part 3-A provides a listing of various Safety & Security training 
programs that On-Board Service Workers are required to take.

Part IV.--Passenger Service Environment, Not a Fixed Location, Unique 
in Several Aspects, and Involves Numerous Challenges
    Part 4 provides examples of Passenger Train Service challenges 
which separate Amtrak On-Board Service Worker responsibilities from so-
called food service workers outside the passenger rail sector.
    IV-A
    Part 4-A provides examples of actual emergency situations involving 
Amtrak On-Board Service Workers.

Part V.--Additional Responsibilities of Amtrak On-Board Service 
Workers, and Work Environment Issues That Separate On-Board Service 
Workers From Food Service Workers Outside the Passenger Rail Sector
                                 ______
                                 
                      PART I.--FEDERAL REGULATIONS

    Amtrak On-Board Service Workers, unlike ``Food Service'' workers 
outside of the Passenger Rail sector are governed by several Federal 
Regulations.
1.1
49 CFR 239    Passenger Train Emergency Preparedness
1.6
FDA Regulations
    Reference Chapter 15 Amtrak Service Standards
    Note 1.--This is not a complete listing of Federal regulations that 
govern On-Board Service Workers.
    Note 2.--Regulation applicability and training requirements, based 
on On-Board Service Workers specific assignment may apply differently.

              PART II.--APPLICABLE AMTRAK RULES & POLICIES

    Amtrak On-Board Service Workers, unlike ``Food Service'' workers 
outside of the Passenger Rail sector are governed by numerous Amtrak 
Rules, Policies & Procedures, and On-Going Bulletin Notices providing 
updated instructions.
2.1
Amtrak Service Standards Manual for Train Service & On-Board Service 
Employees
            Chapter 1 \1\    Standards of Excellence
---------------------------------------------------------------------------
    \1\ Policy, Procedures, and Rules directly applicable to On-Board 
Service Workers.
---------------------------------------------------------------------------
            Chapter 2 \1\    Business Diversity and Strategic 
                    Initiatives
            Chapter 3 \1\    Safety
            Chapter 3A \1\    Safety Rules for On-Board Service 
                    Employees
            Chapter 3B    Safety Rules for Train Service Employees
            Chapter 4 \1\    First Aid and Related Emergencies
            Chapter 5 \1\    Injury/ Illness Reporting Procedures
            Chapter 6 \1\    Emergency Procedure Guidelines
            Chapter 7 \1\    Public Health Issues
            Chapter 8 \1\    Employee Support and Awareness Programs
            Chapter 9 \1\    Customer Service Responsibilities and 
                    Standards
            Chapter 10 \1\    General Rules for On-Train Employees
            Chapter 11 \1\    National Attendance Policy
      
            Chapter 12 \1\    Uniform and Grooming Standards
            Chapter 13 \1\    On-Board Services Crew Functions
            Chapter 14 \1\    Revised Accounting Procedures for On-
                    Board Service Employees
            Chapter 15 \1\    FDA Rules and Inspection Standards
            Chapter 16    Train Service Crew Functions & 
                    Accountabilities
            Chapter 17    Train Service Accounting Responsibilities
            Chapter 18    On Train Fare Rules
            Chapter 19 \1\    Communication Systems
            Chapter 20 \1\    Assisting Customers with Disabilities
            Chapter 21 \1\    Unusual Occurrences
            Chapter 22 \1\    Equipment
            Chapter 23 \1\    Service Recovery
            Chapter 24    Operations Standards Updates Still in Effect
            Chapter 25    Customer Service Notices Still in Effect
            Appendices
                A. Phone Numbers
                B. Personal Phone Book
                C. Forms
                D. Equipment Designs
                E. Pass Policy
                F. 3-Year Calendar
    Note 1.--Employees are required to have the Service Standards in 
their possession at all times while on duty.
    Note 2.--Several chapters of these standards require specific/
specialized training. Others, not requiring training require an 
employee's familiarization and compliance.
    Note 3.--Employees are subject to review and audit to ensure they 
are in compliance with these standards.
2.2
Amtrak Employee Security Handbook
2.3
Amtrak Standards of Excellence
    Note 1.--Amtrak frequently cites these Standards when employees are 
not compliant with rules as a basis for assessing discipline.
2.4
Numerous, Continuously Changing Amtrak Policies
    Reference Employee Advisory, 2/14/05, Revising Alcohol and Drug 
Policy
2.5
Continuous Customer Service Notices
    Reference NEC Customer Services Notice 2001-41
2.6
Continuous Service Standards Updates
    Reference Service Standards Update 05-03
2.7
Continuous General Bulletin Notices
    Reference 3/01/05 Memo to OBS Employees on Sanitation Standards 
Training

                 PART III.--SAFETY, SECURITY, & SERVICE

    Amtrak On-Board Service Workers are governed by an Amtrak mandate 
that places the Safety & Security of Passengers and Employees as their 
first priority.
Safety & Security Are Priority No. 1
3.1
Testimony of Amtrak President & CEO David Gunn before Senate Commerce 
Subcommittee on Surface Transportation July 10, 2002.
    At Page 1, ``To begin with, I want to emphasize that the safety of 
all passengers, employees, trains and facilities is our No. 1 
priority.''
3.2
Testimony of Amtrak Vice President & Chief Transportation Officer R. 
Stephen Strachan before House Transportation and Infrastructure 
Subcommittee on Railroads June 6, 2002.
    At Page 1, ``To begin with, I want to emphasize that the safety of 
all passengers, employees, trains and facilities is our No. 1 
priority.''
3.3
Amtrak's Standards of Excellence--Safety
    At Page 1-4, ``Amtrak's highest priority is the safety and well-
being of our employees and passengers. You are essential in achieving 
that goal. As an Amtrak employee you can begin by being sure you 
understand and comply with all safety requirements related to you 
position.''
    Note 1.--Both the testimony of Amtrak's Senior Level management and 
written Amtrak Policy make clear that the First Priority of On-Board 
Service Workers is the Safety and Security of passengers and employees 
alike.
    Note 2.--Amtrak enforces these standards vigorously and subjects 
On-Board Service Workers to stringent discipline, including lengthy 
suspensions and dismissal when these standards are not complied with.
3.4
Amtrak's Employee Security Handbook
    At Page 1, ``The Amtrak Employee Security Handbook summarizes the 
basic security policies, procedures and protocols that all employees 
must either comply with or be aware of.''
    Note 1.--This Employee Handbook covers a wide range of security 
issues from parking facilities to bomb threats and chemical biological 
and radiological threats, and instructs employees on their 
responsibilities in each of these areas.
3.5
Amtrak Security & Safety Updates
    Examples:
  <bullet> 10/26/01--Addressing handling of USPS mail due to anthrax 
        poisonings,
  <bullet> 2/14/03--Taking precautions during trying times,
  <bullet> 3/18/03--National Terrorist Threat level raised.
    Note 1.--Information and instructions concerning security and 
safety issues is continuously updated at which time On-Board service 
Workers are provided notification and instructed to react accordingly, 
following numerous and varying instructions and protocols.
3.6
Amtrak Safety Instructions
    Examples:
  <bullet> 10/03/01--Personal Safety/Security Alert,
  <bullet> 10/26/01--Handling encounters with suspect packages and 
        substances,
  <bullet> 10/30/01--Procedures for use, removal, and disposal of 
        protective gloves.
    Note 1.--Amtrak safety instructions are issued on an on-going basis 
to On-Board Service Workers who must familiarize themselves with, and 
comply with such instructions.
3.7
Operations Standards Advisories
    Examples: 10/23/02--Security and Safety Awareness On-Board Trains.
    Note 1.--Amtrak Operations Standards Advisories are issued on an 
on-going basis to On-Board Service Workers who must familiarize 
themselves with, and comply with such advisories.
3.8
INS-9 Forms (Employment Eligibility Verification Form )
    Employees are required to complete, and keep updated INS-9 forms 
providing specific forms of identification.
    Note 1.--An employee's failure to complete these forms and provide 
the required identification may result in the employee being withheld 
from service.

  PART III-A.--EXAMPLES OF TRAINING REQUIREMENTS ON SAFETY & SECURITY

    Amtrak On-Board Service Workers are subjected to take various types 
of training concerning Safety and Security on an on-going basis. 
Outlined below is a list of examples that is not intended to provide 
every training program On-Board Service Workers are required to take.
Emergency Preparedness Training (PREPARE)
    Reference--Amtrak's Passenger Train Emergency Preparedness Plan and 
PREPARE 2000 Emergency Training documents, and Service Standards 
Manual.
    Reference--NTSB Report on April 18, 2002 Amtrak derailment in 
Crescent City, Florida. Page 34--PREPARE Training requirements.
Employee Security Training
    Reference--Amtrak's February 10, 2005 Security & Safety update 
announcing newly developed system security training.
Chemical, Biological, & Radiological Training
    Reference--Amtrak Chemical, Biological, and Radiological Emergency 
Response document (February 2003).
First Aid/CPR Training
    Reference--NTSB Letter to FRA (9/16/98) outlining R-93-23, 
resulting in training for all On-Board service Workers in the areas of 
emergency operating rules, First-Aid and CPR, and the use of Public 
Address Systems, and Service Standards Manual.
General Safety Training
    Reference--Amtrak Service Standards Manual.
Customer Service Training That Includes Numerous Passenger and Employee 
        Safety & Security Issues
    Reference--Amtrak Service Standards Manual.
Public Health Issues Training (Food-Borne Illnesses, Communicable 
        Disease Procedures, and Blood-Borne Pathogens Exposure Plan)
    Reference--Amtrak Service Standards Manual.
On-Going Instructions and Training With Respect to Safety
    Reference--NTSB Letter to FRA (9/16/98) outlining R-91-71, 
resulting in instructions to On-Board Service Workers to periodically 
inspect passenger seats.

 PART IV.--PASSENGER SERVICE ENVIRONMENT, NOT A FIXED LOCATION, UNIQUE 
         IN SEVERAL RESPECTS, AND INVOLVES NUMEROUS CHALLENGES

    The operation of Passenger Train Service involves conditions that 
are both unique and challenging, thus subjecting On-Board Service 
Workers to elements that are not present in other so-called food 
service functions outside of the Passenger Rail sector. Outlined below 
are only a few examples.
4.1
There have been 181 documented terrorist attacks worldwide from 1998-
2003 resulting in 431 deaths and thousands of injuries. The continuing 
threat of terrorism (Madrid Spain Bombing/Japan Chemical Attack) 
require extraordinary prevention measures that On-Board Service Workers 
are required to receive training for and exercise on a daily basis.
    Reference--Homeland Security Update No. 02-13 (10/24/02). Outlines 
reporting that al Queda is targeting the U.S. Railway sector.
4.2
Terrorism and Rail Security--Jack Riley
    Reference--Testimony presented to the Senate Commerce, Science and 
Transportation Committee on March 23, 2004. Rand Corporation, CT-224.
4.3
Unfortunately Train Accidents do occur, and involve serious injuries 
and fatalities, which subject Passengers and On-Board Service Workers 
to considerable risks, and further demonstrates the responsibilities 
of, and need for On-Board Service Workers.
    Reference--Amtrak Accidents 1980-2003, as reported by the National 
Transportation Safety Board.
    Reference--Amtrak Train Accidents 1980-2003, as reported by the 
Federal Railroad Administration.
4.4
Passenger trains, unlike a restaurant, or other fixed locations, travel 
throughout the country, in many locations where access for EMS 
personnel may be extremely difficult making it essential for On-Board 
Service Workers to be highly trained to assist until EMS crews arrive 
at the scene.
    Reference--NTSB Report--Derailment of Amtrak Train No. 12 on Portal 
Bridge (11/23/96). Page 6--The first ambulance arrived at the scene 47 
minutes after the initial notification.
    Reference--FEMA Report USFA-TR-143 (9/02) on derailment of Amtrak's 
California Zephyr train on March 17, 2001. Page 4--Key Issues--Access 
was extremely limited due to the remoteness of the accident site.
    Reference--Emergency Net News ``DEADLIEST TRAIN CRASH IN AMTRAK 
HISTORY KILLS 44'' Article on the derailment of Amtrak's Sunset 
Limited.
    ``According to survivors, it may have been as much as forty-five to 
fifty (45-50) minutes before anyone arrived at the scene to begin the 
rescue efforts.''

 PART IV-A.--EXAMPLES OF ACTUAL EMERGENCY SITUATIONS INVOLVING AMTRAK 
                        ON-BOARD SERVICE WORKERS

    Amtrak On-Board Service Workers are, on an ongoing basis confronted 
with the potential for emergency situations that require their taking 
appropriate action to protect the safety and security of passengers and 
employees on-board during a trains operation. Outlined below are just a 
few examples of instances where On-Board Service Workers have been 
involved in emergency situations.
December 1989 Bomb Scare Threat Aboard Train No. 19
    Reference--February 21, 1990 letter to Ms. J.C. Frederick Thompson 
recognizing this On-Board service Worker for the safe evacuation of 
passengers during the bomb scare threat.
October 18, 2004 Fire Aboard Amtrak's Lake Shore Limited Train Near 
        Toledo, Ohio
    Reference--Nomination of On-Board Service Worker Raymond Farris for 
his actions in protecting the interests of On-Board crew members and 
passenger during a fire on-board the train.
April 18, 2002 Auto-Train Derailment--Crescent City, Florida
    Reference--Daytona Beach News Journal: Special Reports, April 19, 
2005
    ``Reggie Jackson Jr. was working as an onboard attendant in one of 
the sleeping cars when the train derailed.
    ``The tracks had come loose, like thread. They were turned all 
different ways, and the wood was shattered,'' said Jackson.
    ``He climbed on top of a car where he had heard screaming and 
popped open windows to help passengers to safety.
    ``James Pierce, also an onboard attendant, was working in another 
sleeping car when the accident took place.
    ``It felt like it was sliding to the left and suddenly it just 
toppled,'' said the onboard attendant.
    ``Pierce, 39 of Huntington, MD, said he grabbed hold of the 
curtains and within seconds found himself hanging from a perch.
    ``After the train came to a stop, Pierce said he pulled out the 
emergency window and began pulling people out of the cabin. He handed 
out bandages to people with cuts and bruises.''
May 2001 California Zephyr Derailment--Iowa
    Reference--Presidents Safety & Service Awards--Jimmie W. Coleman 
Award for Excellence.
    ``A particular noteworthy example of Jimmie's extraordinary 
commitment to customer service is his effort after the derailment of 
the California Zephyr as train No. 5, in Iowa in May of 2001. Jimmie 
was working two coaches, both of which went on their side. There were 
numerous injuries in his car, and in spite of the difficulties, he 
assisted more than 80 passengers to evacuate and then provided them 
with comfort and assistance until medical personnel were at the scene. 
Many passengers at the hospital singled him out for his calm and 
gracious manner, even under the harrowing conditions. What was perhaps 
most amazing was, in spite of his own bruises and cuts, Jimmie made his 
next trip without missing 1 day of work''.
November 26, 2003 Texas Eagle Grade Crossing Accident, Poplar Bluff, MO
    Reference--Presidents Safety & Service Awards--James C. Adams Award 
for Valor.
    ``On November 26, 2003, James was working aboard the Texas Eagle, 
train No. 22, when it was involved in a grade-crossing accident near 
Poplar Bluff, MO. As a result of the accident, a truck was hit and 
landed on its side. After first assessing and ensuring the safety and 
well-being of his sleeping car passengers, James rushed to the side of 
the unsteady vehicle. Ignoring the strong smell of diesel fumes and a 
risk of explosion, he carefully but quickly climbed over the truck's 
large tires, up the vehicle's side and kicked out the windshield. 
Reaching through the shattered glass, he grabbed the driver and pulled 
him through the window. He maneuvered him through the opening, away 
from the metal and glass debris, and carried the driver to a safe 
area.''
On-Board Fire/Emergency Medical Situation
    Reference--Presidents Safety & Service Awards--Lisa A. Castillo 
(Service Attendant), & Doug G. Wheeler (Service Attendant)
    ``Several years ago, when a small fire was discovered onboard, Lisa 
extinguished it calmly and immediately. Another time, a guest needed 
the Heimlich maneuver, but he was too big for Lisa to apply it 
effectively. She called out for Doug, who ran from the other end of the 
car and resolved the situation.''

   PART V.--ADDITIONAL RESPONSIBILITIES THAT AMTRAK ON-BOARD SERVICE 
WORKERS ROUTINELY CARRY OUT THAT SIGNIFICANTLY SEPARATES THESE WORKERS 
     FROM FOOD SERVICE WORKERS OUTSIDE OF THE PASSENGER RAIL SECTOR

5.1
Work Schedules--Long Hours, Away From Home, Unpaid On-Duty Time
    Reference Position Bulletins
    Reference Trip Report 6/06/99
5.2
Service Animals
    Reference Standards Update 05-07
5.3
Passenger Car Watering/Point of Water Sanitation
    Reference May 27, 2003 Memo
5.4
On-Board Service Standards--Uniforms, Grooming, Badges
    Reference May 23, 2003 Memo
5.5
Americans With Disabilities Provisions
    Reference Bulletin outlining Rule #0003
5.6
Meal Check Procedures
    Reference NY Crew Base Meal Check Procedures
5.7
Uniform Standards & Requirements
    Reference July 20, 2004 Service Advisory
5.8
On-Going Customer Service Training
    Reference September 30, 2003 Memo to On-Board Service Employees
5.9
Environmental Training
    Reference Environmental Training Course Form
5.10
Crew Luggage Identification Tag Requirements
    Reference Service Advisory 04-23
5.11
Transportation Department Review System
    Reference 5/31/05 OBS Review Form
5.12
Annual Safety Plans
    Reference 2004 Mid-Atlantic Division Plan Document
5.13
Food Temperature Monitoring Requirements
    Reference Draft LSA Temperature Monitoring Report
5.14
Employee Training Delivery
    Reference December 7, 1992 Letter--David C. Irish, HDR Training
    Note.--In addition to being required to take on-going training, 
Amtrak On-Board Service Workers deliver various training programs.
         Appendix B.--Letter From Gary Maslanka to Vince Nesci
                                                     April 9, 2008.
Mr. Vince Nesci,
Chief Mechanical Officer, National Railroad Passenger Corporation, 4001 
        Vandever Avenue, Wilmington, DE.

SUBJECT: Beech Grove

    Dear Mr. Nesci: This is in reference to Amtrak's outsourcing 
practices at the Beech Grove Shops and a follow-up to previous 
correspondence concerning High Level Sante Fe (Parlor) cars.
    As stated in my letter dated April 1, 2008 members of the Beech 
Grove committee worked diligently to demonstrate that they could 
complete the paint work on this series of cars well below the initial 
quote of 400 hours. Beech Grove management's response, with no 
reasonable explanation was that the work would not be performed at the 
Beech Grove facility. I also pointed out that consistent with 
management's decision to outsource this work car 39975 was shipped to 
Indiana Rail to be painted by vendor Image Mark.
    Since car 39975 was shipped to the vendor we have monitored its 
handling. Our information indicates that this car also incurred 
unnecessary delay, for the same reasons outlined in my April 4, 2008 
letter concerning Superliner 1 coach 31014. Much the same as coach 
31014, it is our understanding that car 39975 was shipped on March 28, 
2008, was initially delayed due to the vendor not having space in a 
shop to paint it. Then the vendor made a decision to paint it outdoors 
resulting in the need to remove the first paint application and repaint 
the car.
    For the same reasons outlined in my April 4 letter it is quite 
obvious that management's outsourcing practices are resulting in 
avoidable delays to equipment currently being overhauled at the Beech 
Grove Shops. In this particular situation it is further worthy to note 
that Beech Grove management has asserted, as an excuse for outsourcing 
that there is a very tight time schedule for the work on this series of 
cars being completed.
    In addition to delays that could have been avoided by this work 
being performed at the Beech Grove Shops, the handling of both these 
cars, the Superliner I (31014) and High Level Sante Fe (Parlor) 39975 
raise another concern with respect to security. As pointed out, both of 
these cars required a second paint job, both requiring that the initial 
application of paint to be removed and paint preparation work for the 
second application.
    During this process observations were made that indicated the crew 
employed to remove the initial paint application was not just the 
normal crew, but also a much larger crew of workers. Although we are 
unable to confirm at this point, the possibility that there were 
numerous temporary workers employed by the vendor to perform the work 
of removing the initial paint application appears likely. In this 
regard, and as you are well aware, the issues of safety and security 
are of the utmost importance.
    Inasmuch, and as it should, the possible employment of temporary 
workers not only raises questions with respect to qualifications to 
perform certain work, it raises serious questions concerning security, 
including but certainly not limited to the following:
    (1) Do vendors that have access to Amtrak equipment require any 
        type of security clearance?
    (2) Do temporary workers hired by a vendor require any type of 
        security clearance?
    (3) What measures, if any, are employed by Amtrak to ensure the 
        security of equipment from the point it is shipped from the 
        shop to a vendor until its return?
    (4) Does Amtrak's current security program govern any of these 
        concerns?
    Your attention in these matters, and assistance in providing 
answers to these questions would be appreciated.
            Sincerely,
                                             Gary Maslanka,
         International Vice President, Director, Railroad Division.
         Appendix C.--Letter From Gary Manslaka to Vince Nesci
                                                    April 16, 2008.
Mr. Vince Nesci,
Chief Mechanical Officer, National Railroad Passenger Corporation, 4001 
        Vandever Avenue, Wilmington, DE.

SUBJECT: Beech Grove--Security Concerns With Contractor Employees

    Dear Mr. Nesci: I am once again writing with regard to security 
issues at the Beech Grove Shops. As you may recall, I sent you a letter 
on April 9, 2008 concerning this matter which, to date you have not 
responded to. Subsequently, on April 16, 2008 an incident occurred in 
the Trim Shop at Beech Grove that highlights Amtrak management's 
failure to properly adhere to company policies governing security.
BEECH GROVE INCIDENT (Trim-Shop)--APRIL 16, 2008
    At approximately 12:30 a.m. on Wednesday April 16, 2008 TWU member 
Mike Unger who was working in the Trim Shop observed two strangers 
walking through the shop. In that he had never seen these individuals 
in the past he approached them as they were attempting to power-up car 
34058. Upon approaching them he took note that they were not displaying 
any type identification or wearing required safety glasses and hearing 
protection. When he asked who they were with, and what they were there 
for, initially these individuals just ignored him. Upon questioning 
them again they responded in a rude manner asserting that they did not 
have to tell Mr. Unger who they were or anything at all. Then they 
stated they were from Image Mark, further making unnecessary comments 
to the effect, the guys you hate. Before even entering the car to check 
to see if any Amtrak worker was in the car or to properly check 
circuits these individuals hooked the power to the car.
    The above referenced incident not only raises issues with respect 
to security and safety, it also raises a concern about the behavior of 
contractor employees creating a hostile work environment.
Security
    With respect to security, as we have brought to management's 
attention in the past, contractor employees are permitted to roam 
around the shops with no identification. Inasmuch, Amtrak workers in 
the shops at times have no idea who these contractor employees may be, 
or if they pose any type danger to their well being. Simply put, this 
is unacceptable.
    Likewise, this incident points directly to Amtrak management's 
failure to ensure the security of its workforce by establishing, 
providing guidance on, and enforcing a clear and understandable 
security policy. To make this point clear outlined below are references 
to Amtrak's Employee Security Handbook and Policy governing Employee 
Identification Cards dated December 12, 2006--P/I Number 3.15.0.
    Amtrak Employee Security Handbook.--Amtrak's Employee Security 
Handbook sets forth certain requirements for vendors and contractors 
entering onto Amtrak controlled property, as follows (Excerpt from 
Amtrak Employee Security Handbook):

``VENDOR AND CONTRACTOR SECURITY--PAGE 16 Security Handbook
``Vendors and contractors entering onto Amtrak controlled property must 
have a valid form of photo employee identification with specific 
employee information.
  <bullet> ``Vendors and contractors must display their company 
        identification and/or an Amtrak issued temporary identification 
        while on company property.
  <bullet> ``Vendors must be escorted while entering restricted areas.
  <bullet> ``All vendors and contractors must sign in with Amtrak 
        Police and/or security officer prior to entering any Amtrak 
        facility, when applicable.
  <bullet> ``Vendors working on or near the right of way must receive 
        Right of Way Protection Training,
  <bullet> ``Vendors and contractors are not permitted to park in 
        restricted areas without permission from the facility manager 
        or Amtrak Police.
  <bullet> ``Vendor and contractor vehicles are subject to search by 
        Amtrak Police.''

    As outlined above, Amtrak's policy requires that vendors and 
contractors must display valid employee identification when on Amtrak 
property. These contractor employees had no such identification and 
were roaming the shops unaccompanied by any Amtrak personnel, 
indicating that requirements in the Security Handbook are being treated 
as more of a paper exercise, not a policy that is being enforced by 
Amtrak management.
    (Excerpt from Amtrak's Employee Identification Card Policy:)

``EMPLOYEE IDENTIFICATION CARD POLICY--December 12, 2006 3.15.0
``6.0    EMPLOYEE INQUIRY PROGRAM
``6.1    Non-display of Identification.--Employees are to approach any 
individual not displaying authorized identification and request to 
review their identification in a business-like and professional manner. 
If authorized identification is produced, remind the individual that 
corporate policy requires that an individual must display their 
identification above the waist level and must be visible at all times.
``6.2    Individuals Without Identification.--If an employee approaches 
an individual who does not possess an authorized form of 
identification, or their authorized form of identification is not valid 
(ex. expired), inquire as to their purpose in the area. Accompany the 
individual to an exit and notify a supervisor who will assure proper 
processing through an escort, if warranted.

    The above referenced excerpts from Amtrak's Policy (3.15.0) again 
point to a requirement that contractor employee's display authorized 
identification. In addition, this policy sets forth an Employee Inquiry 
Program directing Amtrak employees to approach any individual not 
displaying authorized identification. In this case employee Unger did 
just that, and was confronted with a rude response. This incident, the 
likes of which could easily lead to a hostile work environment could 
have, and would have been avoided if Amtrak's management properly 
complied with and enforced its own policy.
Amtrak Standards of Excellence
    The incident referred to herein also raises a concern with respect 
to the applicability of Amtrak's unilaterally imposed ``Standards of 
Excellence''. In particular--Professional and Personal Conduct.
    (Excerpt from Amtrak's Standards of Excellence:)

``PROFESSIONAL AND PERSONAL CONDUCT--PAGE 8
``Projecting a professional image is important in a customer-service 
business like ours. We make an impression by the way we look, the way 
we act and the way we treat our customers and each other.
``Conduct
``On the Amtrak team, there is no place for activities or behaviors 
that compromise the safety, satisfaction and well being of our 
customers, the public or our fellow employees. Therefore, boisterous 
conduct such as fighting, rudeness, assault, intimidation, horseplay 
and using profane or vulgar language is unacceptable. It is important 
to remain calm and be courteous to all customers, even those that may 
be difficult at times.''

    The fact that these contractor employees were rude to Mr. Unger 
when he approached them points to contractor employees on Amtrak 
property not being held to the same standard as Amtrak workers. Amtrak 
management's permitting contractor employees to act outside the 
requirements of standards Amtrak workers are governed by is completely 
unacceptable. Moreover, contractor employees being permitted to act 
outside these standards places Amtrak workers at a disadvantage and 
presents the potential for the safety and well being of Amtrak workers 
being compromised. Inasmuch, I am requesting that Amtrak promptly 
pursue measures that will in the future prevent situations such as this 
which subject Amtrak workers to inappropriate behavior from contractor 
employees.
Safety
    The incident referred to herein also raises serious concerns with 
respect to safety. As just one example, contractor employees arriving 
in the shops and powering-up equipment without even knowing if Amtrak 
workers may be in, on or about the equipment presents a serious safety 
risk to Amtrak workers. Likewise, and as I stated in my April 10, 2008 
letter, management's permitting these contractor employees to enter the 
shops and remain in the shops without the required safety apparatus 
points to a different set of standards for contractor employees that is 
unacceptable. Moreover, Amtrak management's condoning this type of 
behavior from contractor employees is certainly not consistent with 
Amtrak's Standards of Excellence.
    (Excerpt from Amtrak's Standards of Excellence:)

``SAFETY--PAGE 5
``Amtrak's highest priority is the safety and well being of our 
employees and customers. Your help is essential in achieving that goal. 
You can begin by being sure that you understand and comply with all 
safety requirements related to your position. In many instances, it may 
be a matter of using plain common sense.
  <bullet> ``Familiarize yourself with and obey safety guidelines 
        pertinent to your department or craft. They contain wisdom 
        gained from the experience of others who have come before you.
  <bullet> ``Use only company-approved or company furnished tools and 
        equipment. Safety glasses, aprons, gloves, hardhats, etc. are 
        provided for your protection; use them when required.
``Working safely is required of all employees, regardless of 
position.''

    As outlined in the above referenced excerpts from Amtrak's 
Standards of Excellence, Safety is stated to be the highest priority. 
However, permitting contractor employees to perform work at Amtrak 
facilities not in compliance with these standards is not only 
inconsistent with these standards but presents and undue risk to Amtrak 
workers. As you are aware, my letter to you on April 10, 2008, yet to 
be answered, outlined several issues relating to Amtrak's application 
of policies to contractor employees. The incident outlined herein 
verifies that my requests for Amtrak to either apply Amtrak's standards 
to contractor employees, or enforce these standards with respect to 
contractor employees has fallen on deaf ears.
    As asserted in Amtrak's Standards Safety should be the highest 
priority. Unfortunately however, the incident on April 16, 2008, 
especially when considering these problems were just brought to your 
attention less than a week ago tells a different story. Inasmuch and in 
interest of safety, please consider this an urgent request from this 
organization for Amtrak to promptly require contractor employee 
compliance with Amtrak's security and safety policies when in Amtrak 
facilities.
    Also, with respect to security, as outlined below I am restating 
the same questions I presented in my April 9, 2008 letter which has not 
received a response.
    (1) Do vendors that have access to Amtrak equipment require any 
        type of security clearance?
    (2) Do temporary workers hired by a vendor require any type of 
        security clearance?
    (3) What measures, if any, are employed by Amtrak to ensure the 
        security of equipment from the point it is shipped from the 
        shop to a vendor until its return?
    (4) Does Amtrak's current security program govern any of these 
        concerns?
    Your prompt attention in these matters would be appreciated.
            Sincerely,
                                             Gary Maslanka,
         International Vice President, Director, Railroad Division.

    Ms. Jackson Lee. The gentleman's time has expired.
    Let me acknowledge Mr. Nadler, Congressman Nadler. We thank 
you very much for your presence here today and your service. I 
know that we will be working together on these issues in 
Washington. Thank you.
    Let me thank you, Mr. Little, for your testimony, and I am 
delighted to recognize Chief Thomas Lambert, to summarize your 
statement, Chief Lambert, for 5 minutes.

STATEMENT OF THOMAS C. LAMBERT, SENIOR VICE PRESIDENT AND CHIEF 
  OF POLICE, METROPOLITAN TRANSIT AUTHORITY, HARRIS COUNTY, TX

    Mr. Lambert. Madame Chair, members of the committee: Thank 
you. I refuse to accept that you are not truly tied to Texas.
    Ms. Jackson Lee. You are absolutely right.
    Mr. Lambert. Thank you for your leadership and the 
opportunity to appear this morning.
    I'm going to really quickly summarize, I think, some 
points. You have heard a lot of great information about the 
importance of transit security, and I think the real value that 
transportation brings to our communities.
    As Commissioner Kelly said, transportation is really the 
life blood. If it goes away, our cities shut down, our economic 
vitality shuts down. So, the importance, we have got to make 
sure is that we are focusing on the safety and security of our 
systems and the people who operate those systems.
    We applaud the Transportation Security Administration for 
really focusing on aviation security after the attacks of 
September 11. Clearly, that was the method of the attack, and 
we think they took the right approach. But we believe now the 
time is to get more money to securing our mass transit systems.
    Madame Chair, as you said, 34 million people a day use 
public transportation systems across this country. We believe 
that you compare that to the number of folks using commercial 
aviation, although important, we believe that we need to be 
investing more funds into securing our mass transit systems 
across our country.
    I want to applaud Administrator Kip Hawley. You have heard 
me say this before. We had an opportunity, a group of transit 
police chiefs and security directors--Commissioner Kelly has a 
member of his staff that's on the peer advisory group--had an 
opportunity meet with the Administrator, and basically made it 
very clear we were not pleased with the approach that TSA was 
taking by not involving the industry.
    Now, to his credit, he's the one that set up the peer 
advisory group. We now work with him monthly, with conference 
calls. There is a great relationship that exists because 
nobody's feelings get hurt if we really raise issues we all 
need to be talking about. So, I want to compliment the 
Administrator for that.
    However, as Mr. Little said, we are concerned we are not 
getting enough money. Congress has allocated, under House 
Resolution 1, some funding that should be coming to mass 
transit security. By the President's budget for fiscal year 
2009, he's only proposing $175 million, compared to $400 
million that Congress said should be going. Under the House 9/
11 Commission Recommendation Act of 2007, Congress said we 
ought to be looking at $750 million authorized for transit and 
security. We are clearly not at that point.
    Several points I'd like to make. One, we believe funding 
should go directly to the transit systems. The Federal transit 
administration has a program that's been in existence a long 
time, where funds go directly to transit agencies. They are 
accountable to make sure they are providing the services that 
they are getting the funds to do, and that by steps the process 
that we think slows down the process.
    We believe that there is a difference. There's Tier 1 
systems and there are Tier 2 systems. Although the Houston 
region is a high risk vulnerability area, and the City of 
Houston and the Port of Houston are Tier 1s, the transit system 
is a Tier 2. We think that there is some disconnect.
    So, when you are looking at vulnerability in transit 
systems operating in an environment that's high risk, the 
transit system should also be considered high risk in how we 
are approaching that. So, we think there should be some 
clarification to how the tier approach is going. We recognize 
vulnerability. We believe we ought to be looking at making sure 
that consequences, threat, and vulnerability is important when 
we are at a priority of how we are doing funding, but we think 
it's very important that that looks at the entire region one is 
operating in.
    We also believe that, as the Commissioner said, as the 
Secretary said, as Mr. Little said, it's not just capital 
dollars. We think there should be some operating costs 
associated with providing for people that have to be out there 
to provide the service. That's not to say we don't believe in 
technology, because we do. Houston METRO has invested a lot of 
money in technology and will continue to do so. But, we have 
got to make sure that technology stays up with the real world, 
that it's got some flexibility, where there's intelligence that 
lets people that can then take that information and make good 
operational application of what we need to be working on. So, 
we think that's very important.
    The VIPR teams, I think, are the perfect example. If we 
could use operating dollars to put more officers on overtime, 
more visibility, as well as more plainclothes, in the VIPR 
model, we believe that that does, as the Secretary said, 
basically puts the chaos where people don't know where we are 
out there and what we're doing. We think that's very important.
    So, we believe that we have got good tools, we have got 
good approaches. We just think there needs to be more funding. 
Last but not least, front line transit employees.
    If you want to know what goes on in a transit system, talk 
to a bus operator, talk to a rail operator, talk to a 
maintenance employee, because they will tell you want's going 
on. So, the more we train them, the more we make them more 
aware of their role, their opportunity to benefit, the more 
important we are in securing our systems, and our communities, 
and our country, and we think that's something good for us all.
    So, Madame Chair, thank you again for the opportunity to 
appear this morning. I really look forward to working with you 
and your committee, and Congress, and working with TSA.
    Again, we applaud TSA. We think they have done things that 
they believe are the right thing to do. We want to be very open 
with them to do more. We just believe that more funds should go 
to transit security in our Nation's transit systems, and we 
look forward to working with Congress and TSA to make sure that 
that occurs.
    Thank you.
    [The statement of Mr. Lambert follows:]

                Prepared Statement of Thomas C. Lambert
                             April 25, 2008

    Good Morning Chairwoman Jackson Lee and members of the committee. I 
thank you for the opportunity to speak before this committee on the 
extremely important issue of transportation security as it relates to 
mass transit systems in our great Nation.
    As the Senior Vice President and Chief of Police of Houston METRO, 
the transit agency for the Houston region, I have first hand knowledge 
of the challenges of securing a transit system in a high-threat 
metropolitan area.
    Let me start by saying that we in the transit industry applaud the 
efforts of the Transportation Security Administration (TSA) in working 
to secure the Nation's transportation systems in the various modes. 
Since the September 11 terrorist attacks, TSA has focused the bulk of 
its resources, including funding, technology, and programs, on securing 
our aviation systems. While this focus was understandable in light of 
the nature of the attacks, we believe that TSA must now invest in 
securing other modes of transportation, including our mass transit 
systems.
    In 2007, the over 6,500 providers of public and community 
transportation services saw a ridership of 10.3 billion trips; the 
highest ridership level in 50 years according to the American Public 
Transportation Association (APTA). The number of people using public 
transportation has risen by 32 percent since 1995. Weekday boardings 
numbered 34 million compared to the 2 million daily domestic travelers 
using commercial aviation.
    When you take these statistics, couple them with the fact that our 
transit systems are open to the public with many access points, and add 
the historical precedent of repeated attacks overseas on surface 
transit; one can clearly see that our transit systems, left unsecured, 
are viable and attractive targets for terrorists. This was evidenced in 
the attacks on the surface transportation systems in Madrid, London, 
and Mumbai. Transit agencies that have both rail and bus systems are 
particularly vulnerable to attack.
    Transit agencies have worked closely with TSA to highlight the 
importance of transit security. Our efforts have resulted in 
establishment of the Transit Policing and Security Peer Advisory Group, 
the Transit Security Grant Program, and the current effort to train 
front-line employees. Also, the Transit Security and Safety Roundtable 
was established as a means for representatives of the 50 largest mass 
transit systems to share ideas and information, discuss security 
issues, and engage in collaborative efforts to secure our transit 
systems nationwide. This sharing of information and lessons learned 
ensures that we are doing the most that we can with the resources 
available. These programs are a good start; however, they fall short of 
addressing the bulk of the security needs of transit agencies and 
continue to leave our systems, particularly in high risk cities, 
vulnerable to attack.
    The Transit Policing and Security Peer Advisory Group provides TSA 
with the experience and expertise of 15 transit Police Chiefs and 
Security Directors from systems across the Nation in addressing 
security concerns of transit systems. This group was instrumental in 
bringing about the accelerated front-line employee training effort that 
is currently underway.
    The Transit Security Grant Program (TSGP) provides grants to the 
larger transit agencies to implement security programs and measures. 
This program, however, does not provide adequate funding for transit 
agencies to address their security needs. President Bush's fiscal year 
2009 budget only proposes $175 million for transit security grants, 
compared to $400 million provided by Congress in the fiscal year 2008 
Department of Homeland Security Appropriations legislation. It also 
falls far short of the $750 million authorized for transit security in 
fiscal year 2009 under the 9/11 Commission Recommendations Act of 2007.
    In addition to the lack of funding, there are several other issues 
with the program that we believe should be addressed. First, despite 
Congress' direction to DHS to provide funding directly to transit 
agencies, TSGP funds are funneled through State Administrative Agencies 
(SAA's) thus creating delays in the receipt of these funds by the 
transit agencies. The direct awarding of these funds to transit 
agencies as is currently done with Federal Transit program funding 
would greatly improve the process and maximize the use of such funds. 
Second, the awarding of funds should be predicated on legitimate 
security exposure that is based on consequence, threat, and 
vulnerability; regardless of a transit agency's location, ridership, or 
Tier ranking. Third, transit agencies should be able to use the funds 
for operating expenses related to security efforts in addition to 
capital expenses. The Visual Intermodal Protection and Response (VIPR) 
team initiative is a good model for this concept. Agencies could use 
these funds for overtime and backfill in support of random and 
unpredictable patrols that would greatly improve the ability to deter 
and interrupt terrorist activities. The individual agencies know best 
what they need in order to secure their systems, and we believe that 
greater latitude should exist to leverage TSGP funds in furtherance of 
operational efforts in transit security. A major strength of the TSGP 
is the funding of training, drills, and exercises; the valuable tools 
that allow agencies to identify gaps, and prepare their employees to 
mitigate, prevent, and respond to the threat of terrorism. 
Vulnerability assessments must continue to be funded under TSGP as they 
compliment drills and exercises. Together they form a comprehensive 
approach to continual evaluation and improvement. These tools are 
essential in teaching our employees how to implement plans and 
procedures including how to respond to terrorist threats and actions.
    The initiative that is currently underway to train front-line 
transit employees is a great example of how partnerships between TSA 
and local transit agencies can work in resolving transit security 
issues. Transit agencies nationwide realized a need to train their 
front-line employees on security awareness, behavior recognition, 
immediate emergency response and local emergency procedures. These 
agencies also realized that addressing this need would require reducing 
their current funding of on-going security efforts in order to cover 
the costs of overtime and backfill so that front line employees could 
get ``out of the seat'' for training. Local transit agencies worked 
with TSA and the Transit Policing and Security Peer Advisory Group to 
resolve these issues. The effort resulted in additional funds that were 
granted during the fiscal year 2007 TSGP. The granting of these funds 
was accelerated in order to allow the transit agencies to provide this 
much needed training in a timely manner to their most critical 
employees.
    In closing, I would like to commend TSA for their efforts to 
implement programs to ensure that our Nation's transportation network 
is safe and secure. I believe that transit agencies across the country 
stand ready to partner with TSA and Congress so that together we can 
secure this country's public transportation systems in order to protect 
the passengers, employees, and public at large from the threat of 
terrorism.
    I want to thank the chairwoman and committee members again for this 
opportunity to speak, and we stand ready to provide you with any 
additional information that you may need.
    Thank you.

    Ms. Jackson Lee. The gentleman's time has expired.
    I thank each of the witnesses for their testimony.
    Let me, for the record, remind members of this subcommittee 
and other members that are not present, that any statements may 
be submitted for the record.
    I also want to make note that all of the witness's 
statements will be submitted in their entirety into the record, 
and I appreciate again their presence here as we move forward.
    The members present now will be recognized by the 
chairperson in accordance with our committee rules and 
practice. I will recognize members who were present at the 
start of the hearing, of course based on seniority on the 
subcommittee, alternating between the members who are present.
    I would also like to again thank the witnesses for their 
testimony and recognize that when we have field hearings, the 
idea is to be on the ground, and to be able to see first hand, 
and to hear from witnesses who are grappling with these issues 
on a daily basis. We are in New York. We expect to be out west, 
and we hope in the city of Houston, as well, as we begin to 
understand how the Federal dollars are being utilized.
    In these questions, gentlemen, we hope that you will be 
vigorous in your answers. The give-and-take helps us construct 
legislation. That can be important to make the determinations 
that we need to make.
    So, let me begin the questioning by asking the Secretary 
from New York, and having had legislative experience before, 
how good a job is the Federal Government doing after 9/11, in 
the backdrop of 9/11, in working with the States transmitting 
Federal funds and being accurate in how those funds are being 
utilized? Mr. Secretary?
    Mr. Balboni. Madame Chairwoman, in 2003, I was appointed by 
Tom Ridge to serve on a task force to actually chart how monies 
flowed from the Federal Government to locals for homeland 
security. So, that's the perspective from which I start.
    It's gotten a lot better. But it really needs to get to the 
next evolution. The next evolution is that Washington does not 
truly represent the first line of defense when it comes to 
local transit security. That is done at the local level.
    Oftentimes, we still have issues of intelligence sharing, 
we still have issues of sustaining the funding over time. The 
worst thing you can do to a transit system and security is to 
modify the amount of funding year to year. It's just you can't 
build a budget on that. You can't build expectations on that.
    You can't pay down and buy down the risk over time. 
Because, as you know, you know, particularly in a transit 
system like New York's, which is really elderly and fragile, it 
takes a great amount of money, a great--and therefore, a great 
amount of time, to buy down the risks. I mean, for example, the 
Metropolitan Transportation Administration, they are spending--
they want to spend another half billion dollars on capital 
security needs. You know, the first tranche of half a billion 
dollars--actually, $780 million, was utilized to secure the 
East River tunnels, do some station hardening, and a variety of 
different efforts in that regard.
    The second half is going to be used for bridges. Because, 
as we all know, we may be focusing on trains, but if the 
bridges go down, the suspension bridges, the devastation would 
be enormous.
    So what government has to do at this point--the Federal 
Government has to do is recognize that continuous funding at a 
level that is anticipatory, and that continues to work on the 
long range regional plan, is absolutely essential.
    Ms. Jackson Lee. Let me, Mr. Little, thank you for, I 
think, both--and thank you, very much--think both of you and 
Chief Lambert have noted some fractures in our commitment that 
I'm certainly going to be immediately pouncing on, if you will. 
We are right in the middle of the appropriations process. We 
worked very hard to pass the 9/11 Commission in its totality.
    Speak again to this issue of the promises made on funding 
for training, an issue that you know we have worked extensively 
on in this subcommittee and fought hard to get that language in 
the 9/11 bill. Tell me what you have made note of in the drop 
in the funding. I think the commitment was $400 million, and 
you say $175 million.
    What is the impact on that decrease, but what is the impact 
on untrained transportation workers?
    Mr. Little. Well, I think there's----
    Ms. Jackson Lee. What is the impact on our security by 
having untrained transportation workers?
    Mr. Little. Well, in the funding piece, I believe the 
President had really allocated, initially, that he was going to 
put $1.2 billion into transit and into rail. Now, we actually 
have a reduction with it, and in the fiscal year of 2009, as 
Mr. Lambert said, it's down to $175 million, which is about an 
85 percent reduction.
    Not having the proper funds, obviously you can't train 
first time responders. We--you know, as the Commissioner talked 
about, and I think that he gave an excellent example, is that, 
first of all, we have an inherent problem in our system where 
they cannot hire police officers because they don't have the 
salary structure that's conducive for people to want to take 
the job. That's a problem, in itself.
    We have the same problem in the transit, when it comes to 
training our particular workers, because we have these gaping 
holes. A lot of time, management puts together a set of rules 
that are written by attorneys, and it shows all the things that 
they are going to do, and it looks good on paper. But, when it 
comes to reality, they miss the point of not talking to the 
workers on the field, to find out what can be done. Can we not 
work together for a common good?
    But, as soon as you talk that it may increase staffing, 
that's a no-go item. As soon as staffing becomes an issue, no 
one wants to talk about staffing.
    As I mentioned, Amtrak is a prime example. They want to put 
servers on there, similar to McDonald's-type servers. There's 
nothing wrong with McDonald's-type servers. It's good jobs for 
some people.
    However, on board a train that's traveling throughout the 
country, those workers there play the same role as we have for 
flight attendants. Flight attendants are not there just to 
serve. They are there to handle emergencies.
    The NTSB, in numerous rail accidents, has actually added 
more work to those on-board service people. They gave them work 
that will require them to have more training. They are trained 
in CPR. They are trained in everything from a nose bleed, as I 
mentioned earlier. These people are trained in radioactive and 
biological stuff. They are there as a first line.
    Sometimes, you are out in a rural area that takes quite a 
bit of time for even the people who have the discipline, 
whether it be the police departments, or the fire departments, 
or the medical facilities, to get there. So, you have to have 
someone there. So, eliminating them to try to save some money 
because of funding for Amtrak, they are missing--they are 
missing a key element of security.
    As the Commissioner said, having people there is a 
deterrent. But, not having them there is worse. If you don't 
have the right people there--and we said we should have learned 
from what we have seen in Israel and in London--but exactly, 
you know, when Israeli--and just to add one more piece.
    Israeli aviation is small in comparison to what we have in 
the United States, yet they have one of the most dynamic 
security pieces in place. But, what you don't realize is they 
also have a massive transportation system in buses. They have 
spent a great deal of resources training those first time bus 
operators to witness things, look for certain intelligence, and 
report it. So, I think that's something that we are missing. I 
think we have the wherewithal in this country to do similar, if 
not better, but yet we are missing that point.
    Thank you.
    Ms. Jackson Lee. I believe, then, that the transit 
workers--trained transit workers, conductors and others, that 
level that you have just mentioned, I think you call them 
cashiers, and they wanted to move them off, put a machine, then 
put a server that just stands behind the counter--and, as I 
said, we respect everybody that works--really provides an 
opening, creates a major threat opportunity for terrorist 
activity.
    Mr. Little. Well, yeah.
    Ms. Jackson Lee. Is that what you are suggesting?
    Mr. Little. Yes, ma'am. You can actually see it. If you 
look at a--and, I will use Philadelphia, and SEPTA, and I will 
use MTA as an example.
    I mean, in the subway system, we have crimes committed, and 
some of them get high play and high visibility. Those crimes 
are more susceptible to having crime if you don't have someone 
there who's there to witness and see what's going on and report 
it.
    So, if you are having no one at the booth, a person who's 
standing there, they may be the only living soul in that area, 
because there's no workers available. There is no one else 
there to maybe pick up the phone and call for aid, or maybe 
even stop something from happening.
    Because, if you see someone there--so, opening up for 
criminal activity, it leads into terrorism activity. Because, 
if it's--if it's susceptible to criminals, it's certainly 
susceptible to terrorism.
    The part that no one seems to be putting their arms around 
is when we have equipment that is not necessarily in the 
station. A lot of times, those trains, those elevateds, the 
buses, are in an area where they really don't have the 
security.
    Ms. Jackson Lee. Let me just indicate that we will be 
introducing legislation that will congratulate TSA, as you all 
have indicated, that they have made great strides, but focused 
on them complying with the 9/11 recommendations, which includes 
focusing on the professional training of staff. I think you all 
have emphasized the importance of that.
    We expect to mark it up very soon, and your testimony will 
be very helpful.
    Let me move to Chief Lambert, and help walk me through this 
extreme dilemma and confusion of Title 1 surrounding areas, and 
Title 2 mass transit.
    Please help me understand that and how it undermines the 
effectiveness of a synergized security mechanism in an area.
    Mr. Lambert. Madame Chairwoman, I'm not I have a full 
understanding, but let me give you a perspective.
    The Secretary----
    Ms. Jackson Lee. Well, you need to underline it, so I can 
run back to Washington and get it fixed, quickly.
    Mr. Lambert. Well, I'm going to try to help with that.
    The Commissioner said, the Secretary said, and Mr. Little 
have all said what you really have to do is look at things in a 
regional perspective. Transit does not operate in isolation. It 
does not operate in a vacuum.
    Transit operates in a region with a lot of different moving 
parts. Quite frankly, my perspective is if you have got high 
risk threats in an urban area, and you are operating in an 
urban environment, that tells you you've got some exposure, as 
well.
    So, I don't understand the logic, to be honest. I think the 
assumption was, because our concern initially was tunnels, 
bridges, underwater activity, to understand the logic, but I 
think as we continue to evolve and expand, a transit system 
operates within that broader community.
    We serve the Port of Houston. We serve the airport. We 
serve the Texas Medical Center. We serve downtown. We serve 
financial. We serve petrochemical. Every infrastructure that's 
critical to the vitality of that community is impacted, and we 
are a part of that.
    So, we should, in our view, be considered a Tier 1 system, 
if that's the criteria that's being used. Unfortunately, that 
has not been the determination. So, I raise it more from this 
standpoint, because I don't understand the logic there.
    It seems to me that if you are operating in a high risk 
environment, that's exposed to threat, you are just as 
vulnerable from what we have seen overseas that we think that 
there ought to be a logic to that. At this point in time, we 
are not really sure what that logic is.
    Ms. Jackson Lee. Well, my end----
    Mr. Lambert. I will also, Madame Chair, as you know, I have 
also communicated this to TSA, so it has not been something we 
have been silent about.
    Ms. Jackson Lee. Well, the mechanism of change moves 
slowly. But, it's not being propelled by this field hearing. We 
thank you for that explanation.
    My time having expired, I'm going to yield to the 
gentlelady from New York for 5 minutes.
    Ms. Clarke. Thank you, very much, Madame Chair.
    I'd like to pose this first question to Deputy Secretary 
Balboni. We have been holding a host of hearings on the Hill 
around transition, quite frankly. Transition in government.
    It occurs to me that that may be a moment of vulnerability, 
because to a certain degree, while an infrastructure is put in 
place for a transition, there will be a need for regions to 
look at their protocols and their autonomy during that period. 
Even when the government is fully stood up, there are 
vulnerabilities. Imagine during a transition period.
    So, you have placed great value on the Regional Transit 
Security Working Group. Do you believe, Deputy Secretary, that 
you all have taken this into account, and you are coordinating 
in a way in which you are able to be autonomous in being able 
to secure the region during the period of transition?
    Mr. Balboni. Congresswoman, you are preaching to the choir. 
This is one of the key points that I have made to the entire 
directorate. As a matter of fact, I'm going to be heading up to 
Lake George this evening to speak to the Army National Guard.
    Essentially, my message to them is that during the period 
of vulnerability, we must be ready and prepared, regardless of 
what happens in Washington.
    Ms. Clarke. Um-hmm.
    Mr. Balboni. As I said before, the rubber meets the road in 
terms of transit security at the State and local level. Well, 
the same is true with Homeland Security.
    I referenced the Congressional Research Service, a report 
that just came out, talking about how al Qaeda has had 
attention to the political calendar. In addition to which, if 
we consider that the attacks of 2001 came shortly after the 
burst of the dot-com bubble, there are a series of fatwas and 
edicts that talk about damaging a Nation economically.
    So, if we take the current economic malaise and we take 
this new--the first change of administration since 9/11, and 
the fact that there will be new personalities and new 
directions, new leadership, and we probably won't know what the 
fact of the Department of Homeland Security looks like until 
probably, maybe even March, you know, when you take a look at 
all the different levels, in that period of time we must have a 
seamless transition, but we also must have the underpinnings of 
the State ready to respond at any moment.
    Ms. Clarke. Thank you. It's reassuring to know that 
brilliant minds think alike.
    Let me just go on further to ask can you give us a little 
bit more detail on how the RTSWG does its work, and the 
initiatives that have come out of it? Is it a unique idea, or 
are there other similar organizations in the United States?
    Mr. Balboni. Essentially what we did that was unique was--
and Ray Kelly had mentioned that they had asked to be a part of 
this Regional Transit Security Work Group. So, Commissioner 
Falkenrath approached me, and said, ``Why can't we 
participate?'' I said, ``You know what? You ought to 
participate. You are 2,600 officers. You are not a transit 
agent, quote/unquote, but you certainly provide most of the men 
and women and services for the system.'' So, we let them in.
    But, when they came in, suddenly the other groups looked at 
the pie and said, ``Oops, mine. We are not going to participate 
with this, or we are going to shut down.''
    Ms. Clarke. Um-hmm.
    Mr. Balboni. So, I came in a meeting in March, and put 
everyone together, and we started hearing back and forth. Then, 
I raised my hand, and I said, ``Wait a minute. Have you ever 
all sat in a room, at a secret level, and talked about your 
vulnerabilities?'' They said, ``No, we've never done that.'' 
That's a part of trying to protect their market share, as well, 
not share their vulnerabilities.
    So, I instructed that we would do just, in fact, that. I 
asked TSA to provide a secret clearance briefing on 
vulnerabilities, and we did it at the NYPD Counterterrorism 
Center in Coney Island. We had only the top security officials 
of all the systems in the room, including the FBI, and we went 
through all the vulnerabilities. It was an eye-opening process.
    We then came back in August, and talked about other things 
that had been done, to see what kind of vulnerabilities were 
there. Then, we came and we said, ``All right. Now, how do we 
fix the system? Not the individual transportation system; the 
system itself.'' Recognizing that if a bomb goes off on New 
Jersey Transit, it will shut down the rest of the transit 
system, whether it's in New York State, or Connecticut. We had 
to make that recognition, that securing vulnerability system-
wide was going to secure each one of the intricate parts.
    That--and, that was done with Kip Hawley in the room. He 
sat in the room through all of those 2-day meetings. What he's 
told me is that's the first time that's happened.
    I know Houston has got its act together. They provide a 
great amount of service and security. But, I think that what 
the Chief talked about, in terms of Tier 1 and Tier 2, that 
happens more often than it should. We don't have uniformity of 
designation of security risks.
    Ms. Clarke. Thank you. My time--can I get in one more 
question, Madame Chair?
    Ms. Jackson Lee. Absolutely.
    Ms. Clarke. Great.
    Ms. Jackson Lee. Absolutely.
    Ms. Clarke. I'd like to get in one more question, then.
    This is actually split between both you, Chief Lambert, and 
you, Mr. Little. I'm going to be more specific to Mr. Little, 
because I'm a little bit more familiar, but you raised this in 
the discussion today.
    You discussed in your testimony today, Mr. Little, the role 
of rail and transit workers as being on the front line, and I 
very much agree with that, and I'm glad I was able to actually 
add the amendment adopted to help ensure in the 9/11 bill that 
we would provide grant funding to unions for security training.
    Can you tell me what your union has done on this? 
Particularly here in New York City, or anywhere in the Nation. 
We'd like to have evidence that an infrastructure is being put 
in place, that funds are being utilized, but not enough is 
being done. Likewise, any benefits that you may have seen for 
the workers, Chief Lambert.
    Mr. Lambert. Let me respond, real quick----
    Mr. Little. Okay.
    Mr. Lambert [continuing]. To Ms. Clarke.
    Again, I want to credit TSA because they did, in working 
with the industry and partners, they did do some fast track 
funding for frontline employee training.
    We have got 1,200 operators that have already been trained 
in Houston. That's been very fast track. We started back in 
March, I believe.
    We got direct funding not only for the training but 
something that was critical. Transit systems have peak 
operations they have got to get done. You cannot pull operators 
out of seats for training when you are trying to run the 
service.
    Ms. Clarke. Right.
    Mr. Lambert. So, the TSA, again to their compliment, in 
talking to the industry, agree in that grant funding to pay 
overtime for training. So, that is something that's in the 
works now.
    Houston's got 1,200 employees that have gone through that 
training, out of 2,200, and we are scheduled to get ours 
completed by August. So, we are trying to fast track that.
    I will make one final comment and turn to Mr. Little.
    Transit systems are very similar to a neighborhood, in my 
view. People that take care of their neighborhood are people 
that are engaged. Frontline employees are engaged, understand 
what's occurring on the system. When something is out of the 
norm, they are going to report it. That's the criticality of 
the frontline employees and how they work to make sure our 
systems are secure.
    So, the more we can improve their capability of awareness, 
and not just one time, but I think now we've got to look to the 
future of recurring in-service type training, because 
circumstances are going to change----
    Ms. Clarke. That's right.
    Mr. Lambert [continuing]. Conditions are going to change, 
and our application of operations and technology will change. 
So, we need to make sure that this is an ongoing program, as 
well.
    Ms. Clarke. Thank you.
    Mr. Little. I can add to that. I think even the most, you 
know, robust emergency response system, and we have found out 
that it was--it's--it can be overwhelmed, as we saw on 9/11--
one of the things that we have been doing internally is that we 
have actually--our Local here in New York has handed out kits. 
I don't want to call it survival kits, but it basically gives 
you some things that you need in an emergency situation. Each 
one of our workers was done--has been handed that----
    Mr. Balboni. The ``go bags.''
    Mr. Little [continuing]. I think--yeah, the go bags. It's 
really been very helpful. I think that was worked out through a 
grant, as well. So, it was kind of a working together project.
    We have also--the MTA has put together some films to start 
to begin a process of making our members more educated in what 
to look for. The film, itself, I think we can expand on that. I 
think we can do some, like, kind of a first--it's hard to do 
it.
    Let me just say this, as the Chief said, it's not easy to 
take people off the clock all the time, because we do have some 
financial problems, as we all know. We are all faced with it. I 
don't care whether you are in the private or public sector.
    However, I think we have to find maybe different ways to do 
that. I don't know the answer right now today. But, it's 
something I think collectively we should be looking at, and 
find ways to help. Because, I really am a firm believer that 
the best deterrent we have is the human deterrent. I think the 
more people that we educate--because I think the infrastructure 
of the United States is important to every citizen, not only to 
transport workers, but I think we owe it to the United States 
and everyone who lives here to protect our infrastructure at 
all costs.
    Ms. Clarke. Thank you. My time has expired.
    Ms. Jackson Lee. Your time has expired.
    We are going to enter into a second round, and so you will 
have the opportunity. This is a rapid-fire round, and I thank 
you gentlemen.
    It's what we call building a record. I do want to make it 
clear that field hearings are to generate solutions, 
legislatively and policy-wise, and you are very helpful to us 
as we try to build this record.
    President Little, let me ask you to give your defined and 
informed opinion of the underpinnings of prevention and 
protection strategy as you deal with your transit worker force. 
That is, do you view it as training, screening, information 
sharing, or more technology?
    These are your workers, and I wonder whether or not workers 
leave out in the morning on their shift and they gather and if 
there's any appropriate intelligence that they should have, do 
you know whether they are getting it, as they get out on the 
subways and various other facilities that they are utilizing?
    So again, what involvement do you believe your workers have 
in helping to protect, as they are the pre-responders, if you 
will, in the transit system?
    Mr. Little. Well, as I mentioned earlier, I don't think we 
have actually gotten there yet. I don't think we are at any of 
those pieces that you mentioned.
    We don't do basic, you know, what's happening in the area. 
I don't think we have enough collaboration between management. 
Because really, the main object is to get the buses out, get 
the subways out, get them out on time. We don't spend enough in 
trying to de-brief, or brief. So, that's not happening, to the 
best of my knowledge. If it is, I will correct it. But, to the 
best of my knowledge, that doesn't happen today. As I said, I'm 
not aware that it happens in any of our cities that we 
represent our transit people--Philadelphia, Miami. I don't--I'm 
not aware of any of that, that I have--so I can say reasonably 
that I don't believe we do any pre-briefing.
    We have a tremendous amount of vulnerabilities out there. I 
think we need to educate more, especially on the subcontractors 
that come on the property. That's a whole other subject. But, 
there's areas that we need to start briefing people and holding 
accountable for.
    Ms. Jackson Lee. So, we have an overall need in technology, 
in training, in intelligence sharing. You think, overall, we 
need to have a greater focus on what we do with the numbers of 
transit workers across America.
    Mr. Little. Absolutely. I think that the TSA and everyone 
has put a lot of emphasis and dollars into the aviation side. I 
think we are quite there. We are probably not exactly 100 
percent, but, you know, we are getting there on the airlines 
side.
    The rail and transit has been totally behind. We have so 
much vulnerability. Not to be crude but, I mean, I was visiting 
one city, in Chicago, where I was at a rail yard, and--and this 
is no exaggeration. Osama bin Laden could be waling down the 
mainframe, leading a band, and no one would have stopped him.
    I mean, that's how bizarre--I know that sounds bizarre, but 
that's exactly--there was a limited, if not any, security. 
Sometimes, it's just a little bit of a fence, a brick wall, 
maybe some barbed wire, you know, it looks good. But, when it 
comes right down to it, no one stops you.
    So, and we also have that, and I submitted some of that in 
our written testimony, where we showed examples where 
subcontractors, people come on the facilities, they have access 
to all of our facilities.
    So, there has to be some funding placed into manning some 
security checkpoints. We don't have any security checkpoints.
    Ms. Jackson Lee. You know, I don't think it is facetious or 
sounding out of order. One would think, if you look at the 
transit or rail system across America, it is found in our 
backyards. You know, I live in a city where you look out your 
window, and you are seeing major rail freight traveling down in 
back of your back yard.
    Beyond Osama bin Laden leading a band, he might be taking a 
ride. I do think it is crucial that this be a wake-up call for 
what we need to do.
    My next question to the Deputy Secretary and to Chief 
Lambert, both cities--both New York and Houston have been in 
the Olympic chasing game, and we wish each of the cities well 
as we move forward into the opportunities for having the 
Olympics.
    That means large crowds. Certainly one of the assets, or 
one of the, I assume, offerings that any package gives is a 
transit system.
    So, my question is what thoughts have been given when you 
think of even beyond the normal utilization, that you need to 
have in protecting these systems? These are open systems, so do 
you think it is the advance in technology? If so, what kind of 
technology are each of you using, as it relates to your own 
transit systems?
    Deputy Secretary.
    Mr. Balboni. As the 2004 Convention--Republican National 
Convention here in New York City, as the Pope's recent visit 
has demonstrated----
    Ms. Jackson Lee. Um-hmm.
    Mr. Balboni [continuing]. What is absolutely crucial is a 
strategic collaboration that identifies technologies, but 
almost more importantly, identifies individuals that are on the 
same page of protection.
    There are many different strategies that can be employed. 
What we are doing now, in various parts of the system there are 
chemical, biological, radiological nuclear detection systems 
that are being put together, utilizing camera--CTV cameras, 
training individuals, doing the surge with National Guard, as 
well as with police officers, increasing the number of 
officers.
    We have developed a new program that--See Something/Say 
Something--where we try to utilize the riding public. Now, we 
are taking the information and we are putting it into computer 
system called CISAR. Essentially, what it is, it is a 
infrastructure mapping for the entire State and region. What we 
do is, every time we get a report of a suspicious activity, we 
pin map it around the critical infrastructure. We are able to 
develop a baseline.
    Then, if we get a threat through our Federal partners, we 
are able to then go into that sector or that specific site and 
say, ``You know, you've had activity that is of this nature 
over the past period of weeks, months, years. You need to pay 
attention to this, particularly as it relates to this threat.''
    That type of interaction, interactive behavior and 
collaboration, is absolutely essential because technology, by 
itself, as you know, is just not the silver bullet.
    I'll give you one last example. There was a company that 
was assigned with the task of providing a camera that we would 
be able to use an algorithm, to be able to determine if there 
was a package left in the scene. There was great hope and 
promise when it was first announced. Well, what we found, it 
really doesn't work. Too many false images. Too many false 
alerts.
    That's really the thing that we have to keep in mind. Every 
time you put in new technology, if you have too many false 
positives, then the system you are trying to protect simply 
doesn't work, and that doesn't work.
    Ms. Jackson Lee. Well, you believe that then it is an 
integrated system, when you begin to talk about large crowds 
and we can talk about prevention. You have to have overall.
    You know, it's interesting because we go from a virtual 
fence at the border. I think we have fallen into the technology 
trap and, frankly, believe that we can put all our eggs in one 
basket.
    You're suggesting that you want to see a seamless 
integration of----
    Mr. Balboni. Absolutely. I mean, if you look----
    Ms. Jackson Lee [continuing]. Of people, research, 
technology----
    Mr. Balboni. Oh, yeah, if you----
    Ms. Jackson Lee [continuing]. Is that what I'm hearing?
    Mr. Balboni [continuing]. If you look at--there's parallels 
drawn to our intelligence community and structure. When we went 
away from HUMINT--human intelligence--and we really rely so 
much on the SIGINT--you know, signal intelligence--and all of 
the technology, we lost the granularity. Because, it's not just 
information. It is the truth, it is the accuracy, it is the 
means, it is the method, it is the motivation and the 
capability that really inform us as to whether or not a threat 
is really a threat or it's simply another rabbit hole.
    Every day, I get a threat briefing. I can't tell you how 
many times my hackles have been raised that something is coming 
and I need to pay attention, and it just evaporates into 
nothingness.
    Ms. Jackson Lee. Um-hmm.
    Mr. Balboni. That exercise, in and of itself, though 
enormously important, is also part of the war of attrition that 
I know our enemies are working against us. The point of 
terrorism is to terrorize.
    Ms. Jackson Lee. Um-hmm.
    Mr. Balboni. They want to keep us constantly in fear, and 
constantly expending dollars in a way so that we are distracted 
and not investing in the assets we really, truly need to 
prevent, and respond, and mitigate.
    Ms. Clarke. Exactly.
    Ms. Jackson Lee. Do you think we have enough people on the 
ground--and I'm going to yield to Chief Lambert, and I 
recognize your time frame--just bear with us for a moment.
    Mr. Lambert. Okay.
    Ms. Jackson Lee. Do you think we have enough people on the 
ground to see--in this city, for example--in any place--bags 
and other items placed randomly----
    Mr. Balboni. Madame Chairwoman----
    Ms. Jackson Lee [continuing]. The potential that it has?
    Mr. Balboni [continuing]. The reality of the situation is 
that you would have to be--even if you added, you know, even if 
you doubled the police officers, and you wouldn't want to 
necessarily do that, because you don't want to make it a police 
state--even if you dramatically increased the number of 
officers, the chances of an officer seeing a vehicle-borne 
explosive device or a backpack being placed, just in time to 
get it out before it does its damage, is just--you know, it's 
not reality.
    We need, again, the integration of training, of utilizing 
the public, of making sure we have really good threat analysis, 
but even better sources, and take all that information and get 
it real time to the people who need it. That's the system--
that's the paradigm we are working towards. We are not there 
yet.
    Ms. Jackson Lee. So, I think what president Little has said 
is that all the eyes and ears are important.
    Mr. Balboni. Absolutely.
    Ms. Jackson Lee. Let me just go quickly to Chief Lambert.
    Houston is certainly in the Olympic-searching opportunity, 
but answer the question that I posed, in terms of whether or 
not other resources are needed, or how you respond to 
protecting, in terms of large usage of the transit system 
because of large events.
    Mr. Lambert. Madame Chair, let me say, as you know, we have 
a great partnership, regional partnership in our community, 
with the city, the county, the State and Federal agencies 
working with transit in any major event we do, like we did the 
Super Bowl in 2004. That took all of us working together. As 
the Secretary said, it takes everybody working together. As you 
said, it's got to be integrated.
    Technology for technology's sake, we should not do. But 
technology that gives better information to boots on the 
ground, as the Commissioner said, is good technology. We 
believe technology does have a place.
    As you know, we are doing a lot of things with technology 
on buses. It's not just closed circuit television that you 
record. It's the ability to then transmit that video out where 
any car along a corridor can see what's going on in the bus. If 
there's a problem, it protects the officer in how they are 
responding to the circumstance that takes place on the bus. It 
gives the operator a better sense that they know that 
something's gone wrong and we are aware of it, and assist in 
that regard. It's tied into vehicle location systems. It's tied 
into radio communication systems. It's tied into systems in an 
integrated approach.
    So, I say that as an example. I think there still needs to 
be more research with that. Now we are building wireless clouds 
in our communities that all potential users can use, so the 
more we get communications capability, I think the more things 
we can do. The way we are trying to approach technology is does 
it give a benefit to officers in the field in doing their job, 
does it give them better information to do their job. If that 
does work, then you've basically got a multiplying effect. We 
think that's the reasonable approach.
    The frontline employees, again, it's very challenging and I 
think there is more we need to do. We have very few--you have 
about 15 minutes with a bus operator coming into work in the 
morning. So, I think what we have got to figure out is how can 
we put information systems in place in club rooms that passes 
this information along in quick bursts. That hasn't been 
figured out yet, but that's something we need to be doing.
    Ms. Jackson Lee. Deputy Secretary, do you know how much you 
spend on mass transit in New York?
    Mr. Balboni. There's a number of different pots. I mean, 
the last that it was announced by Secretary Chertoff, $153 
million was done for the Regional Transportation Work Group. 
However, as you know, dollars are fungible.
    In the Urban Area Security Initiative for the New York 
region, approximately a quarter billion dollars was utilized 
last year, again thanks to the great work of members of the New 
York delegation.
    Ms. Jackson Lee. So noted on the record.
    Mr. Balboni. Right. Also, you know, there's the port 
security pot, also.
    Ms. Jackson Lee. Yes.
    Mr. Balboni. All these dollars are utilized for the region, 
and that's some of the things that I have really demanded and 
stressed as we apply these dollars. What is the capability that 
we are actually investing in? That is the question that is not 
asked enough.
    Ms. Jackson Lee. We are going to ask you to--we will 
probably submit a question for you to give us the structure of 
this regional cooperation.
    Mr. Balboni. Sure.
    Ms. Jackson Lee. We are glad that TSA has been involved in 
it, and we may begin to look at what you and Houston does with 
respect to that.
    Do you know how much you spend on mass transit?
    Mr. Lambert. How much grants we have received, or how much 
we spend?
    Ms. Jackson Lee. How much you spend.
    Mr. Lambert. Our total budget annually is about $20 million 
for my department. That's both for system safety and security.
    Ms. Jackson Lee. Do you have direct funding?
    Mr. Lambert. Direct funding from grants?
    Ms. Jackson Lee. TSA. Have you gotten--yes.
    Mr. Lambert. The--no, ma'am.
    Ms. Jackson Lee. It's to the agency?
    Mr. Lambert. It's to the State----
    Ms. Jackson Lee. To the agency or the State?
    Mr. Lambert [continuing]. Administrative agency.
    Ms. Jackson Lee. To the--pardon me?
    Mr. Lambert. The State administrative agency.
    Ms. Jackson Lee. And then down?
    Mr. Lambert. Yes, ma'am.
    Ms. Jackson Lee. All right.
    Let me just quickly say, do you have a counterterrorism 
roundtable, or----
    Mr. Balboni. Yes, I do.
    Ms. Jackson Lee [continuing]. I heard--I know you said the 
regional. But, you have that----
    Mr. Balboni. Yes----
    Ms. Jackson Lee [continuing]. A counterterrorism, where all 
the law enforcement and others are on it.
    Mr. Balboni. Yes. By the way, I just have to say, on the 
SAA, so I just have to say SAAs are OK, all right? You know, I 
know that everyone wants the direct funding, but we----
    Ms. Jackson Lee. Well, I wanted you to defend yourself.
    Mr. Lambert. Please do not take that personally.
    Ms. Jackson Lee. We are going to have a question, but we 
will put it in writing----
    Ms. Clarke. One size doesn't fit all.
    Ms. Jackson Lee [continuing]. How you expedite getting 
funds to the boots on the ground.
    Mr. Balboni. We'd love to be able to address that.
    Ms. Jackson Lee. Yeah, we will do that.
    Mr. Balboni. Well, we do a----
    Ms. Jackson Lee. Do you have a counterterrorism group?
    Mr. Balboni. We do have it. At the State level----
    Ms. Jackson Lee. Right.
    Mr. Balboni [continuing]. We are utilizing about 16 
different agencies, from the Department of Health, Department 
of Transportation. Because, as you know, it's all hazards. You 
know, it's not simply counterterrorism. It's also pandemic.
    Ms. Jackson Lee. But these are not a--sort of a law 
enforcement counterterrorism unit?
    Mr. Balboni. Yes, there is.
    Ms. Jackson Lee. In the city? Would it not--would 
Commissioner Kelly be on it, and----
    Mr. Balboni. Yes, well actually, Commissioner Kelly has his 
own counterterrorism force. There is a counterterrorism----
    Ms. Jackson Lee. No, but I'm talking----
    Mr. Balboni [continuing]. For New Jersey----
    Ms. Jackson Lee [continuing]. About these--this group that 
sits and listens to the intelligence, the chatter, the 
information.
    Mr. Balboni. They are a part of the Joint Terrorism Task 
Force----
    Ms. Jackson Lee. Yes.
    Mr. Balboni [continuing]. That is headed up by the FBI----
    Ms. Jackson Lee. Yes.
    Mr. Balboni [continuing]. Counterterrorism Division for New 
York City.
    Ms. Jackson Lee. All right. Then, let me just ask this 
question. Do we have a representative of the workers on that, 
then?
    Mr. Balboni. No, we do not.
    Ms. Jackson Lee. Let me just say this. Obviously, they 
would have to secure security clearance.
    Mr. Balboni. Right.
    Ms. Jackson Lee. I believe that that is a missing link in 
any counterterrorism unit, coalition, coordination. I know we 
have one in Houston, Chief Lambert, and I would suggest to you 
that is a link.
    I believe it is important, and I'm going to put it on the 
record, that we provide an opportunity for a designated 
individual--for example, the staff of Mr. Little. He's the 
International President and he happens to be here in New York. 
I'm sure that it would not be an International President in 
other areas, but if a vehicle was made available for them to 
secure their security clearance, I think it is crucial that you 
have that insight.
    Because, if it's not the local law enforcement, MTA police, 
or a subset of the NYPD, or it's not the METRO Police, it is 
some bus driver, conductor, another person whose eyes and ears 
are being utilized as they go through this process.
    So, I want to put on the record that I think that is 
another missing element when we don't have the eyes and ears 
that are actually there, and to be able to avoid those--those 
entities.
    Let me just do one other. Chemical and water tunnels. Have 
you got any special initiative? It's the other part of 
infrastructure protection. Any special initiatives on that?
    Mr. Balboni. Well, we--as you noted first off, that 
Congress has moved forward on the Chemical Plant Security Act. 
We are waiting, again, for the regulations to----
    Ms. Jackson Lee. But I want to know if you and the State 
had any specific----
    Mr. Balboni. We are watching how those regulations come 
out. In terms of the water, essentially what we are really 
focusing on is the aqueducts for New York City, in particular. 
As you know, they are----
    Ms. Jackson Lee. Very important.
    Mr. Balboni [continuing]. They are fed through upstate New 
York.
    Ms. Jackson Lee. Very important, yes.
    Mr. Balboni. We are monitoring them. It's really the 
infrastructure, itself, as opposed to the threats from 
polluting the source. We are really focusing on how the water 
gets from one place to another, making sure that that's secure.
    Ms. Jackson Lee. Let me go on the record by saying I think 
we'd like to have an opportunity to first hand view those 
aqueducts----
    Mr. Balboni. Great.
    Ms. Jackson Lee [continuing]. And get an understanding 
first-hand how that works.
    Mr. Balboni. Right.
    Ms. Jackson Lee. With that, let me gavel myself, and yield 
to the gentlelady from New York.
    Ms. Clarke. Thank you, very much, Madame Chair.
    Deputy Secretary Balboni, your testimony alludes to the MS 
ISAC program, created by the New York State Office of Cyber 
Security and Critical Infrastructure Coordination, which has 
been so successful that you are now running the program 
nationally, as virtually every other State in the country has 
requested New York's support in keeping their systems secure.
    Can you explain what this program is, and how it helps 
secure our city's transit infrastructure? Also, what 
developments do you see for MS ISAC in the future?
    Since this is essentially a national level program, are you 
getting the Federal support you need to continue this 
development?
    Mr. Balboni. That's a great question. Thank you, 
Congresswoman.
    Essentially, what we have in Albany is a 24/7 operation 
that provides monitoring, detection, mitigation, and recovery 
services to a variety of different private and public sector 
clients. It's the first of its kind.
    Ms. Clarke. Um-hmm.
    Mr. Balboni. What essentially is the backbone of it is the 
recognition that--I don't want to use the word ``war''--but 
certainly we are in conflict on a minute-by-minute basis for 
outside sources seeking to breach our computer systems, to take 
information. We don't know what they really want, ultimately. 
Are they preparing the cyber battlefield?
    But, there is a specter that has been thrown over all of 
the--whether it's the transit system, or chemical company 
system--and that is the specter of SCADA manipulation--
supervisory control and data access.
    This is the way we run things remotely in this Nation, and 
we use the Internet oftentimes. So, whether it's the operation 
of a dam, the operation of a shut-off valve for a chemical 
company, we sent it through the Internet.
    Because it's through the Internet, it can be hacked into. 
If it's hacked into, we are very concerned that you could take 
over the SCADA system and then manipulate the operation. There 
have been demonstrations that have been done through Homeland 
Security that show that this is a fact, a capability.
    So, we have two parts. One is a service where we say, ``You 
know, you've been attacked. Here is where it's come. Here's how 
you mitigate it.'' I get alerts daily on this happening all the 
time. They seem to be happening more and more. Everything from 
defacing a Web page. They are actually going in and trying to 
plant Trojan Horses and compromise computer systems, massive 
computer systems.
    The second is this SCADA system, where we are trying to 
inform local governments in particular. Much of the critical 
infrastructure at the local level is run by local governments. 
So, what we have to do is inform them of this threat and give 
them the ways in which they can secure their system within 
their budgetary constraints.
    Absolutely, it's two crucial aspects. What we need from the 
Federal Government, and I have talked to Bob Stephens at the 
Office of Homeland Security, we need them to invest. We had a 
grant proposal before the Department of Homeland Security and 
unfortunately we hear it's not going to go.
    That's a shame, because we can, again, force multiply. We 
can add value to the cyber operations, not just of New York 
State and its municipalities, but of other States, as well.
    Ms. Clarke. Thank you, very much.
    To Mr. Little, I'm just wondering whether the city has 
taken any steps that other--that have not been undertaken 
overall through the Federal initiative, to involve workers in 
security plans, to your knowledge?
    Mr. Little. I don't believe we are involved in any security 
planning.
    Ms. Clarke. Well, that, I think, speaks to your 
recommendation, Madame Chair. I concur.
    Just in closing, with my time, I have no further questions. 
I want to really thank you, gentlemen, for re-affirming my 
belief in being proactive and forward thinking. One of the 
things that have just sort of, as a freshman, observation, is 
the way that we think after the fact, it seems. You all are 
leading the way, and it was important that you testified here 
today. I certainly appreciate it, and thank you for your time 
and sacrifice for being here today.
    Mr. Little. Thank you.
    Mr. Lambert. Thank you.
    Ms. Jackson Lee. Well, I can't thank Congresswoman Clarke 
enough for her, I guess, aggressive approach to homeland 
security, but more importantly, her very strong advocacy for 
the city in insisting that we come and undertake this important 
field hearing, and as well, this important field visit that we 
will be doing.
    As I close, I'm trying to make sure that the record is 
clear.
    Deputy Secretary Balboni, your tunnels in New York, does 
New York, itself, have a special initiative on securing your 
tunnels? Do you have enough money, and have you secured money 
from the Federal Government?
    Mr. Balboni. As it relates to the water tunnels?
    Ms. Jackson Lee. Water tunnels and all of your underground, 
including your subway tunnels.
    Mr. Balboni. The subway tunnels on the East River tunnels, 
they are, we believe, as secure as they can be. Obviously, 
there's no foolproof system, itself.
    However, the Port Authority tunnels, the PATH tunnels still 
remain of vital importance, and unfortunately a vital 
vulnerability. We do not have the funding necessary to do that. 
If you were to have an off-line discussion with Director 
Hawley, I'm sure he would agree with me that it is a top 
priority in securing these tunnels, particularly as it relates 
to the rebuilding of Ground Zero.
    Ms. Jackson Lee. Um-hmm.
    Mr. Balboni. In terms of the aqueducts for the New York 
City drinking water supply, really crucial. There are 
initiatives to try to shore them up, as it were, and to develop 
another tunnel. But certainly, we do not have a separate grant 
source, and we would really, really need and appreciate that.
    Ms. Jackson Lee. Mr. Little, we spoke over you. Would you 
find it helpful if there was a set place for a representative 
of workers who would have security clearance to be part of the 
counterterrorism group?
    Mr. Little. Well, I think it closes the loop. I think it 
brings workers as part of the process. As I said, I think it's 
everyone's efforts. I have heard that from every one of the 
panel, the people here, how important it is to have these eyes 
and ears. Not one agency can handle all of it.
    So I think, by closing the loop and making us part of it, I 
think also enhances our abilities, yes.
    Ms. Jackson Lee. You are way out west. So, Chief Lambert, 
you have a lot of chiefs under your jurisdiction. Are we doing 
the job that we need to do in intelligence sharing? Are you 
getting time sensitive information as you may need it?
    Mr. Lambert. I think we can continue to do better at it. I 
think it's getting better, but I think we can do more.
    I want to compliment the New York Police Department. We get 
intelligence from the New York Police Department, and 
Massachusetts Bay Area Transportation Authority does a weekly 
intelligence bulletin that we are getting, as well. The Federal 
Government is doing more on intelligence sharing.
    I just think we've got also, with the Joint Terrorism Task 
Force, as you know. In our region, we are building a fusion 
center with the Houston Police Department, the Sheriff's 
Department, our department is involved, the Texas Department of 
Public Safety. I think we are getting better at that. The more 
timely we get real information, the sooner we get out to where 
we need to be, and I think we are still building on that.
    Ms. Jackson Lee. A person with security clearance, that 
represented workers in the appropriate position would add to 
any round table on counterterrorism?
    Mr. Lambert. Yes, ma'am. I think the more perspectives we 
get, and the more insight we get, I think the better off we are 
going to be in how we are collectively resolved to address any 
issue we are confronted with.
    Ms. Jackson Lee. Let me just say again we came to seek, to 
look, and to determine. This has been a very forthright 
discussion. The witnesses have brought us a very broad array of 
concerns, as well as insight on how we can improve the 
conditions of transit security, but also, as we mentioned, 
infrastructure. The protection of your underwater tunnels and 
you aqueducts, as you just mentioned, is vital for us to take 
back to Washington.
    I cannot thank enough Congresswoman Yvette Clarke for her 
service on this committee and, as well, her invitation.
    We look forward to inviting you to our Washington hearings, 
as we pursue legislation, to address some of the concerns that 
you have made.
    We are in the appropriations process on behalf of Chairman 
Thompson and Ranking Member King. The Authorization Committee 
is a very large part of the appropriations process.
    When we begin to see how the authorization is not matching, 
it's time for us to insert and engage, and we will do so. Your 
bringing to our attention the concerns regarding training, the 
concerns regarding funding for certain infrastructure and, as 
well, not the oversight, but the need to expand our review and 
oversight of mass transit across America has been vital, not 
only to the city and State, but to the Nation.
    For that, gentlemen, we are grateful, and we thank you for 
your presence before this committee.
    Mr. Balboni. Thank you.
    Mr. Lambert. Thank you.
    Mr. Little. Thank you, very much.
    Ms. Jackson Lee. The meeting is adjourned.
    [Whereupon, at 11:48 a.m., the subcommittee was adjourned.]

                                 <all>

</pre></body></html>
